APPENDICES

1a
APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT

Nos. 19-183-cv(L), 19-199-cv(CON), 19-201-cv(CON)

ASSOCIATION FOR ACCESSIBLE MEDICINES,
HEALTHCARE DISTRIBUTION ALLIANCE,
SPECGX LLC,
Plaintiffs-Appellees,
v.
LETITIA JAMES, IN HER OFFICIAL CAPACITY AS
ATTORNEY GENERAL OF THE STATE OF NEW
YORK, HOWARD A. ZUCKER, IN HIS OFFICIAL
CAPACITY AS COMMISSIONER OF HEALTH OF
THE STATE OF NEW YORK,
Defendants-Appellants.

Before: CABRANES and LOHIER, Circuit
Judges, and REISS, District Judge.*1
LOHIER, Circuit Judge:
To address the substantial costs imposed by the
national opioid public health crisis as it struck New
York, the New York State Legislature enacted the Opioid Stewardship Act (OSA). See 2018 N.Y. Sess. Laws,
*1 Judge Christina Reiss, of the United States District Court for
the District of Vermont, sitting by designation.

2a
ch. 57, pt. NN (codified at N.Y. Pub. Health Law § 3323
and N.Y. State Fin. Law § 97-aaaaa). Part of the Act
requires opioid manufacturers and distributors to pay
an annual “opioid stewardship payment.” The proceeds
must be used to support statewide programs that provide opioid treatment, recovery, prevention, and education services. Another part of the Act, known as the
“pass-through prohibition,” bars manufacturers and
distributors of opioids from passing the costs of the
opioid stewardship payment through to their customers.
Healthcare Distribution Alliance (HDA) and Association for Accessible Medicines (AAM) are trade associations that represent manufacturers and distributors
of pharmaceutical products, including opioids, while
SpecGx develops, manufactures, and sells opioids. The
three plaintiffs filed separate actions challenging the
OSA and seeking declaratory and injunctive relief
against the New York Attorney General and the New
York Commissioner of Health in their official capacities (collectively “New York”). In a consolidated decision, the United States District Court for the Southern
District of New York (Failla, J.) concluded that the
OSA’s pass-through prohibition violated the dormant
Commerce Clause. After determining that the prohibition was not severable from the rest of the Act, the District Court invalidated the Act in its entirety.
The New York State Legislature subsequently
amended the OSA so that its provisions expired in December 2018. See 2019 N.Y. Sess. Laws ch. 59, pt. XX,
§ 5. It then enacted a new payment mandate, effective
July 2019, that does notinclude a pass-through prohibition. See 2019 N.Y. Sess. Laws ch. 59, pt. XX (codified
at N.Y. Tax Law § § 497–99) (the “2019 Act”). In light
of this legislative development, the State has elected
not to seek reversal of the District Court’s invalidation

3a
of the pass-through prohibition. On appeal, therefore,
New York asks us only to reverse the District Court’s
invalidation of the remainder of the Act, including the
opioid stewardship payment requirement. We conclude
that the payment is a tax within the meaning of the
Tax Injunction Act (TIA), 28 U.S.C. § 1341, thus depriving the District Court of subject matter jurisdiction
to adjudicate the plaintiffs’ challenges to the payment.
We therefore REVERSE the judgment of the District
Court insofar as it invalidated the stewardship payment and the remainder of the Act, with the exception
of the pass-through prohibition, the legality of which is
not before us on appeal.
BACKGROUND

Opioids are a class of drugs that include prescription pain relievers, synthetic opioids like fentanyl, and
heroin. While prescription opioid medications can treat
and manage pain when properly prescribed by a physician, they also pose serious risks of addiction and
abuse. Starting in 1999, the United States experienced
a rapid rise in prescription opioid overdose deaths, followed by spikes in heroin and synthetic opioid overdose
deaths. The death toll was accompanied by steep economic costs estimated to total $78.5 billion each year.
In 2017 the United States Department of Health and
Human Services declared the opioid epidemic a nationwide public health emergency.1 That same year,
1

These background facts about opioids and the national opioid
epidemic are taken from the Centers for Disease Control and Prevention, the National Institute on Drug Abuse, and the Department of Health and Human Services. See Ctrs. for Disease Control
and Prevention, Opioid Basics, https://www.cdc.gov/drugoverdose/opioids (last updated Mar. 19, 2020); Nat’l Inst. on Drug
Abuse, Opioid Overdose Crisis, https://www.drugabuse.gov/drugtopics/opioids/opioid-overdose-crisis (last updated May 27, 2020);

4a
the New York State Department of Health reported
that the rate of overdose deaths involving opioids in
New York had doubled between 2010 and 2015.2 The
associated financial cost to New York of addressing the
opioid crisis was over $200 million in 2017 alone—a
twofold increase from the amount spent in 2011.
The New York State Legislature enacted the OSA
to raise $600 million over six years to address the costs
of dealing with the crisis. See N.Y. Pub. Health Law
§ 3323(3); N.Y. State Fin. Law § 97-aaaaa(4); 2018 N.Y.
Sess. Laws, ch. 57, pt. NN, § 5. The OSA thus imposes
an annual fixed $100 million “opioid stewardship payment” collectively on all licensed opioid manufacturers
and distributors that sell or distribute opioids in the
State (“licensees”). N.Y. Pub. Health Law § 3323(2)-(3).
Each licensee is responsible for paying a portion of the
$100 million total based on its market share of opioid
sales in New York. Id. § 3323(5). The Department of
Health, which collects the funds, annually calculates
the amount of each licensee’s payment based on reported opioid sales from the previous year. Id.
§ 3323(4)–(6). Based on 2017 reports, the Department
determined that 97 licensees owed stewardship payments in 2018.3
U.S. Dep’t of Health and Human Servs., What is the U.S. Opioid
Epidemic?, https://www.hhs.gov/opioids/about-the-epidemic (last
updated Sept. 4, 2019); see also Fed. R. Evid. 201(b)(2).
2

N.Y. State Dep’t of Health, Opioid Annual Report 8 (Oct. 2017),
available at https://health.ny.gov/statistics/opioid/data/pdf/nys_
opioid_annual_report_2017.pdf (last visited June 26, 2020); see
Fed. R. Evid. 201(b)(2).
3

The 2019 Act amended the OSA to provide that the OSA will
apply only to opioid sales on or before December 31, 2018. 2019
N.Y. Sess. Laws ch. 59, pt. XX, § 5. Sales after that date are subject to the new assessment. Id. § 6.

5a
The revenues from the opioid stewardship payments are deposited into the “opioid stewardship fund,”
a special revenue fund established in the joint custody
of the State Comptroller and the Commissioner of Taxation and Finance. Id. § 3323(2); N.Y. State Fin. Law
§ 97-aaaaa(1). New York law requires that “[m]oneys
in [the] opioid stewardship fund shall be kept separate
and shall not be commingled with” New York State’s
general fund or “any other moneys” in the custody of
the Comptroller or the Commissioner. N.Y. State Fin.
Law § 97- aaaaa(2). New York law also strictly limits
how money in the sequestered fund can be used. It may
only support programs sanctioned by the State Office
of Alcoholism and Substance Abuse Services (OASAS)4
to “provide opioid treatment, recovery and prevention
and education services,” and to “provide support for the
prescription monitoring program registry” that doctors
must consult before prescribing opioids and certain
other controlled substances. See id. § 97-aaaaa(4); N.Y.
Pub. Health Law § 3343-a(2); see also id. § 3306.
The OSA contains two other provisions of significance to our resolution of this appeal. First, it has a
“pass-through prohibition” that bars licensees from
passing the costs of their opioid stewardship payments
on to purchasers, including the ultimate consumers of
opioids. Id. § 3323(2). Licensees that violate the Act’s
pass-through prohibition are subject to a penalty of up
to $1 million for each violation. Id. § 3323(10)(c). Second, the Legislature added a severability clause, which
provides that the invalidation of any part of the Act
will not “affect, impair, or invalidate” the remainder of
the Act. 2018 N.Y. Sess. Laws, ch. 57, pt. NN, § 4 (“If
any . . . section of this act shall be adjudged by any
4

In 2019 OASAS changed its name to the Office of Addiction
Services and Supports.

6a
court . . . to be invalid, such judgment shall not affect,
impair, or invalidate the remainder thereof, but shall
be confined in its operation to the . . . section directly
involved in the controversy in which such judgment
shall have been rendered. It is hereby declared to be
the intent of the legislature that this act would have
been enacted even if such invalid provisions had not
been included herein.”).
HDA and SpecGx challenged both the opioid stewardship payment and the pass-through prohibition,
while AAM challenged only the pass-through prohibition. As relevant here, the plaintiffs argued that the
pass-through prohibition violates the dormant Commerce Clause. HDA moved for summary judgment of
its claims, while AAM and SpecGx both moved for preliminary injunctions. New York moved to dismiss each
case on jurisdictional grounds, arguing, as relevant
here, that the TIA, 28 U.S.C. § 1341, barred the District Court from hearing the plaintiffs’ claims because
the opioid stewardship payment is a tax. New York also defended both the stewardship payment and the
pass-through prohibition on the merits.
In a consolidated Opinion and Order, the District
Court denied New York’s motions to dismiss, granted
HDA’s motion for summary judgment, and granted
AAM’s and SpecGx’s motions for preliminary injunctions. The District Court concluded that the TIA did
not apply to plaintiffs’ claims because neither the opioid stewardship payment nor the pass-through prohibition is a tax that triggers the TIA. The District Court
also concluded that the separate pass- through prohibition violates the dormant Commerce Clause. Relying
on the legislative history rather than the text of the
OSA, the District Court held that the stewardship
payment requirement could not survive without the
pass-through prohibition. Accordingly, the District

7a
Court declared the OSA invalid in its entirety and enjoined its enforcement.5
This appeal followed.
DISCUSSION

On appeal, New York asks us to reverse the District Court’s invalidation of the OSA, including the opioid stewardship payment, but it no longer defends the
pass-through prohibition. The validity of the passthrough prohibition thus is not before us on appeal.
The only remaining issue is whether the District Court
lacked jurisdiction to invalidate or enjoin the State’s
collection of the opioid stewardship payment because
the payment is a tax within the meaning of the TIA, as
opposed to a regulatory fee or a punitive fine. We conclude that it is a tax and that the District Court should
have dismissed the challenges to the payment requirement for lack of subject matter jurisdiction. Because New York does not challenge the District Court’s
invalidation of the pass-through prohibition, we need
not and do not address whether the prohibition is severable.

5

The District Court entered various orders and judgments from
which New York appeals: a December 19, 2018 Opinion and Order
denying New York’s motion to dismiss, granting HDA’s motion for
summary judgment, and granting AAM’s and SpecGx’s motions
for preliminary injunctive relief; a December 19, 2018 Judgment
to the same effect; a December 21, 2018 Amended Judgment entered at HDA’s request, expressly stating the declaratory and
permanent injunctive relief granted to HDA; and a January 2,
2019 Order Granting Injunction entered at AAM and SpecGx’s request. The AAM and SpecGx actions are stayed pending this appeal.

8a
I

The TIA provides that “[t]he district courts shall
not enjoin, suspend or restrain the assessment, levy or
collection of any tax under State law where a plain,
speedy and efficient remedy may be had in the courts
of such State.” 28 U.S.C. § 1341. It “prohibits declaratory as well as injunctive relief.” California v. Grace
Brethren Church, 457 U.S. 393, 411 (1982). The statute “has its roots in equity practice, in principles of
federalism, and in recognition of the imperative need of
a State to administer its own fiscal operations.” Franchise Tax Bd. V. Alcan Aluminium Ltd., 493 U.S. 331,
338 (1990) (quotation marks omitted). Congress intended the TIA “first and foremost [as] a vehicle to limit drastically federal district court jurisdiction to interfere with so important a local concern as the collection
of taxes.” Id. (quotation marks omitted).
“Two conditions must be satisfied to invoke the
protection of the TIA: first, the surcharges must constitute ‘taxes,’ and second, the state remedies available to
plaintiffs must be ‘plain, speedy and efficient.’” Travelers Ins. Co. v. Cuomo, 14 F.3d 708, 713 (2d Cir. 1993)
(footnote omitted), rev’d on other grounds sub nom.
N.Y. State Conference of Blue Cross & Blue Shield
Plans v. Travelers Ins. Co., 514 U.S. 645 (1995). The
parties do not dispute the sufficiency of state remedies,
and “[t]he Supreme Court has previously determined
in other litigation related to the TIA that New York
does provide ‘plain, speedy and efficient’ forums for individuals to bring constitutional challenges to its tax
laws.” Abuzaid v. Mattox, 726 F.3d 311, 316 (2d Cir.
2013) (citing Tully v. Griffin, Inc., 429 U.S. 68, 76–77
(1976)). So we turn immediately to whether the opioid

9a
stewardship payment is a “tax,”6 a question that we review de novo. See Luessenhop v. Clinton County, 466
F.3d 259, 264 (2d Cir. 2006).
A

“Although there is no bright line between assessments that are taxes and those that are not, most
courts agree that [a]ssessments which are imposed
primarily for revenue-raising purposes are ‘taxes,’
while levies assessed for regulatory or punitive purposes, even though they may also raise revenues, are generally not ‘taxes.’” Travelers, 14 F.3d at 713 (quotation
marks omitted).7
In San Juan Cellular Telephone Co. v. Public Service Commission, the First Circuit devised a threefactor test, which we have cited with approval, for distinguishing taxes from regulatory fees.7 See 967 F.2d
6

The plaintiffs maintain that the TIA did not deprive the District Court of jurisdiction even if the stewardship payment is a tax
because the District Court’s invalidation of the stewardship payment requirement flowed entirely from its severability and constitutional analyses of the pass-through prohibition. But the TIA
plainly bars federal courts from “enjoin[ing], suspend[ing] or restrain[ing] the assessment, levy or collection of any tax under
State law” so long as state remedies are adequate. 28 U.S.C. §
1341. Thus, if the stewardship payment is a tax, then the District
Court should have dismissed all of the plaintiffs’ challenges to the
opioid stewardship payment—including on severability grounds—
because plaintiffs’ claims are barred by the TIA.

7

Several sister circuits have adopted the San Juan Cellular factors in analyzing whether an assessment is a tax within the meaning of the TIA. See Hill v. Kemp, 478 F.3d 1236, 1245-46 (10th
Cir. 2007) (Gorsuch, J.); Hedgepeth v. Tennessee, 215 F.3d 608,
612 (6th Cir. 2000); Valero Terrestrial Corp. v. Caffrey, 205 F.3d
130, 134 (4th Cir. 2000); Home Builders Ass’n of Miss., Inc. v. City
of Madison, 143 F.3d 1006, 1011 & n. 14-15 (5th Cir. 1998); Bidart
Bros. v. Cal. Apple Comm’n, 73 F.3d 925, 931-33 (9th Cir. 1996).

10a
683, 685 (1st Cir. 1992) (Breyer, C.J.); see also Entergy
Nuclear Vt. Yankee, LLC v. Shumlin, 737 F.3d 228,
232–33 (2d Cir. 2013) (citing San Juan Cellular with
approval); Travelers, 14 F.3d at 713 (same). The three
factors are: (1) the nature of the entity imposing the
assessment, (2) the population subject to the assessment, and (3) the ultimate allocation or use of the revenues generated by the assessment. See Entergy, 737
F.3d at 232–33. To put these factors in context, the
First Circuit helpfully described “a spectrum with a
paradigmatic tax at one end and a paradigmatic fee at
the other”:
The classic “tax” is imposed by a legislature
upon many, or all, citizens. It raises money,
contributed to a general fund, and spent for the
benefit of the entire community. . . . The classic
“regulatory fee” is imposed by an agency upon
those subject to its regulation. . . .
It may serve regulatory purposes directly by,
for example, deliberately discouraging particular conduct by making it more expensive. . . .
Or, it may serve such purposes indirectly by,
for example, raising money placed in a special
fund to help defray the agency’s regulationrelated expenses.
San Juan Cellular, 967 F.2d at 685.
In Entergy, we focused largely on the third San
Juan Cellular factor. See Entergy, 737 F.3d at 232–33
(discussing the other two factors with approval but
finding it unnecessary to adopt them at the time). Our
sister circuits appear to agree that this factor is the
most significant. See Hill v. Kemp, 478 F.3d 1236, 1245
(10th Cir. 2007) (Gorsuch, J.) (“[T]he critical inquiry focuses on the purpose of the assessment and the ultimate use of funds.” (quotation marks omitted)); Hedgepeth v. Tennessee, 215 F.3d 608, 612 (6th Cir. 2000)

11a
(describing the revenue’s ultimate use as “the predominant factor” (quotation marks omitted)); Collins Holding Corp. v. Jasper County, 123 F.3d 797, 800 (4th Cir.
1997) explaining that “the heart of the [TIA] inquiry
centers on function, requiring an analysis of the purpose and ultimate use of the assessment”); San Juan
Cellular, 967 F.2d at 685 (noting that courts “have
tended . . . to emphasize the revenue’s ultimate use” in
cases falling in the middle of the tax–regulatory fee
spectrum).
“[T]he principal identifying characteristic of a tax,
as opposed to some other form of state-imposed financial obligation,” therefore, “is whether the imposition
serve[s] general revenue-raising purposes,” which “in
turn depends on the disposition of the funds raised.”
Entergy, 737 F.3d at 231 (quotation marks omitted);
see id. at 232 (“[C]ourts applying the San Juan factors
. . . have . . . concluded that whether the purported tax
is directed to general public purposes is the most salient factor in the decisional mix.” (quotation marks
omitted)). If the “revenue’s ultimate use” is to “provide[] a general benefit to the public, of a sort often financed by a general tax,” then the imposition is likely
to be a tax. Id. at 232 (quoting San Juan Cellular, 967
F.2d at 685). By contrast, if the funds are allocated to
“provide[] more narrow benefits to regulated companies
or defray[] [an] agency’s costs of regulation,” the assessment is more likely to be seen as a regulatory fee
that does not implicate the TIA. Id. (quoting San Juan
Cellular, 967 F.2d at 685).
B

As we have described, faced with rising costs associated with mounting statewide opioid addiction and
opioid-related deaths, the State Legislature crafted the
opioid stewardship payment to raise $600 million to re-

12a
spond to the State’s public health crisis. New York’s allocation of revenues from the payment thus strongly
suggests that the stewardship payment requirement
serves general revenue-raising purposes without a
regulatory or punitive aim.
Funds from the stewardship payment are statutorily directed to support programs that are operated or
authorized by OASAS “to provide opioid treatment, recovery and prevention and education services” and to
support the State’s prescription monitoring program
registry. N.Y. State Fin. Law § 97- aaaaa(4). Both the
OASAS programs and the registry reflect broad public
health initiatives that undoubtedly provide a “general
benefit” to New York residents “of a sort often financed
by a general tax.” Entergy, 737 F.3d at 232 (quotation
marks omitted); see, e.g., N.Y. Tax Law § 482(b); N.Y.
Pub. Health Law § 2807-v (funding public health programs with the proceeds from New York’s cigarette excise tax).
The OSA also effectively bars using any revenue
generated from the stewardship payment to deliver
“narrow benefits” to opioid manufacturers and distributors. Entergy, 737 F.3d at 232 (quotation marks omitted); cf. Bidart Bros. v. Cal. Apple Comm’n, 73 F.3d
925, 927 (9th Cir. 1996) (holding that an assessment
imposed on apple producers was not a tax where proceeds were “used predominantly to promote the sale of
. . . apples”). The revenue generated from the stewardship payment also does not “defray” the Department of
Health’s “costs of regulat[ing]” manufacturers and distributors. Entergy, 737 F.3d at 232 (quotation marks
omitted); cf. Gov’t Suppliers Consolidating Servs., Inc.
v. Bayh, 975 F.2d 1267, 1271 n.2 (7th Cir. 1992) (holding that fees imposed on waste-hauling trucks were not
taxes because the proceeds were used for the “regulatory” purpose of “implement[ing] the waste disposal

13a
regulatory system to which registrants are subject”).
For example, the proceeds from the stewardship payment cannot be diverted to cover the agency’s costs of
licensing opioid manufacturers and distributors; those
costs are paid pursuant to a regulatory scheme funded
by an entirely separate assessment authorized under
New York’s Public Health Law. See N.Y. Pub. Health
Law § 3310 (imposing a fee for a license to manufacture or distribute controlled substances in the State).
Consideration of the other two San Juan Cellular
factors only reinforces the view that the opioid stewardship payment is a tax. “The first of these additional
factors, the nature of the entity imposing the charge,
cuts strongly in favor of classifying the [stewardship
payment] as a tax.” Entergy, 737 F.3d at 232. The
payment was clearly imposed by the Legislature, which
wields the taxing power, and not by a “limited-purpose”
agency.8 Id. The agency appears to have played little
substantive role in imposing it.
The plaintiffs argue that the remaining factor cited
in San Juan Cellular, the population subject to the
charge, suggests that the stewardship payment is not a
tax because it falls on a narrow set of only 97 companies. But this argument, like the plaintiff’s failed argument in Entergy, is “too simplistic” insofar as it asks
us to just tally the number of entities subject to an assessment. Id. at 233. With respect to this factor, our
task is to consider whether “[t]he category of persons or
8

We note that the District Court mistakenly believed that the
Department of Health imposed the payment. Special App’x 24. In
fact, however, the Department of Health only collects the annual
$100 million payment; the Legislature imposed the payment and
determined how it would be apportioned among licensees. N.Y.
Pub. Health Law § 3323(3), (5); see also Hedgepeth, 215 F.3d at
610, 612.

14a
entities subject to [a] tax[] is defined by general and
open- ended criteria, even if only a few entities, or one
entity alone, are subject to the tax.” Id. When viewed
properly in that light, the population subject to the
stewardship payment consists of “[a]ll manufacturers
and distributors . . . that sell or distribute opioids in
the state of New York.” N.Y. Pub. Health Law
§ 3323(2). So defined, the category is broad and general
enough to qualify the payment at issue in this appeal
as a tax.
II
A

Urging a contrary conclusion, the plaintiffs insist
that the payment is a regulatory fee, not a tax, because
the public health programs supported by the payment
serve “not a general revenue-raising purpose” but a
“narrow” and “specific one.” HDA Br. 29 (emphases in
original); see id. at 35 (contrasting purportedly “‘narrow’ industry-related programs funded by the opioid
stewardship fund” with the “lengthy catalogue of general public health programs” funded by the New York
cigarette excise tax). They claim that the specific purpose of the programs is to “defray[] . . . expenses associated with regulating the opioid supply chain as well
as . . . expenses for mitigating externalities associated
with that supply chain.” Id. at 30.
But the public health programs that the stewardship payment funds “relate directly to the general welfare of the citizens of [New York,] and the assessments
to fund them are no less general revenue raising levies
simply because they are dedicated to a particular aspect of the commonwealth.” Hedgepeth, 215 F.3d at
613 (quotation marks omitted); see id. at 612–13 (holding that a disabled parking placard fee was a tax even
though its proceeds went primarily to the state’s high-

15a
way fund). In New York, the statewide OASAS programs benefit the broader New York population
through “prevention and education services,” as well as
New Yorkers struggling with opioid addiction. N.Y.
State Fin. Law § 97-aaaaa(4). The prescription monitoring program registry similarly extends well beyond
the opioid crisis to include several categories of nonopioid controlled substances that have debilitated
countless New Yorkers. N.Y. Pub. Health Law § 3343a(1), (2); id. § 3306.
Moreover, the assessment would be a tax even if it
helped to alleviate only the social and other costs to
New Yorkers caused by the sale and manufacture of
opioids by the assessed entities. “[T]axes imposed on
industries believed to impose unusual costs on the
state or its residents”—like the opioid manufacturers
and distributors subject to the OSA—“are common, and
are unquestionably taxes.” Entergy, 737 F.3d at 233
n.2; see also Home Builders Ass’n of Miss., Inc. v. City
of Madison, 143 F.3d 1006, 1012 (5th Cir. 1998) (reasoning that a building permit fee imposed on residential builders was a tax because it raised revenue to
maintain public services strained by rapid residential
development).
Directing us to Entergy, the plaintiffs separately
contend that the deposit of the opioid stewardship
payment proceeds in a “special revenue” fund, rather
than in New York’s general fund, cuts strongly against
recognizing the payment as a tax. They point to our assertion in Entergy that “[i]f the proceeds [of a measure]
are deposited into the state’s general fund (rather than
directly allocated to the agency that administers the
collection, for the purpose of providing a narrow benefit
to or offsetting costs for the agency), the imposition will
generally be seen as serving the general benefit of the
state, and thus as a tax.” Entergy, 737 F.3d at 231; see

16a
also Travelers, 14 F.3d at 713 (concluding that surcharges imposed on health insurers were taxes because
they were “paid into the State’s general fund”).
But Entergy does not suggest the converse, namely, that depositing the proceeds of an assessment in a
special fund invariably cuts against finding that the
assessment is a tax. Determining whether proceeds are
held in the general fund or a special revenue fund does
not end our inquiry. In Entergy, we used a more functional approach, contrasting proceeds deposited in a
State’s general fund with those proceeds that are “directly allocated to the agency that administers the collection, for the purpose of providing a narrow benefit to
or offsetting costs for the agency.” Entergy, 737 F.3d at
231. In Valero Terrestrial Co. v. Caffrey, the Fourth
Circuit adopted a similarly flexible, functional approach that considers whether revenue that “is placed
in a special fund . . . is used to benefit regulated entities, . . . to defray the cost of regulation (making it resemble a ‘fee’) or else to benefit the general public.” See
205 F.3d 130, 135 (4th Cir. 2000) (quotation marks
omitted). In line with this approach, we consider the
nature of the fund, and how the money in the fund is
ultimately used, to determine if the fund holds the proceeds of a tax.
Recall that the proceeds from the opioid stewardship payment are deposited in a separate, “special revenue” account in the state treasury. See N.Y. State Fin.
Law § 97-aaaaa(1). The New York State Finance Law
defines “special revenue funds” as “[f]unds which are
used to account for the proceeds of specific sources that
are specifically restricted by law from being deposited
in the general fund of the state.” See N.Y. State Fin.
Law § 2. The Commissioner of the Department of Taxation and Finance and the Comptroller alone share
custody over the account and exercise significant con-

17a
trol over the funds in the opioid stewardship account.
The proceeds are not “directly allocated” to any agency,
let alone to the Department of Health, “the agency that
administers the collection” of the stewardship payment. Entergy, 737 F.3d at 231. And any money that is
paid out of the fund is used primarily to support the
work of OASAS in its opioid-related public health initiatives for the benefit of the public at large. As noted,
none of the funds from the account offset the Department of Health’s regulatory costs or benefit regulated
entities. The only Department of Health program that
the funds can support is the prescription monitoring
program registry.
We agree with a number of our sister circuits that
“even assessments that are segregated from general
revenues” may be taxes “under the TIA if expended to
provide a general benefit to the public.” Bidart Bros.,
73 F.3d at 932 (quotation marks omitted); see also Hill,
478 F.3d at 1244–45; Am. Landfill, Inc. v. Stark/ Tuscarawas/Wayne Joint Solid Waste Mgmt. Dist., 166
F.3d 835, 839 (6th Cir. 1999) (holding that a solid
waste disposal assessment was a tax because, although
the proceeds were “placed in a fund . . . separate from
the general fund, [they] serve[d] public purposes benefitting the entire community”). Indeed, any number of
reasons might spur a legislature to place specific tax
revenues in an account that is separate from the general fund. The Seventh Circuit has said, for example,
that separate accounts may be “created to hold revenues generated by specific taxes, in order to avoid annual appropriations battles.” Empress Casino Joliet
Corp. v. Balmoral Racing Club, Inc., 651 F.3d 722, 730
(7th Cir. 2011) (en banc). In short, that the proceeds of
the opioid stewardship payment are deposited in a special fund rather than the State’s general fund in this

18a
case does not mean that the payment is a regulatory
fee rather than a tax.
We now turn to the remaining Entergy factors.
Although the designation to the general treasury of the
tax in Entergy was the “principal” characteristic supporting its status as a tax, Entergy, 737 F.3d at 233,
we also observed that the statute imposing the tax
(1) directed that its proceeds be paid to the Commissioner of the Department of Taxes, (2) did not reserve
its proceeds for any particular purpose, and (3) labeled
it a “tax,” id. at 231.
The plaintiffs claim that all three of these remaining factors weigh against recognizing the stewardship
payment as a tax. The OSA, they point out, directs the
payment to be paid to the Department of Health, not
the Department of Taxation and Finance; it reserves
the payment for a specific purpose; and it does not refer to the payment as a “tax.”
While it is true that the Department of Health is
tasked with collecting proceeds of the stewardship
payment, the OSA requires that the proceeds be remitted to the special revenue fund jointly held by the State
Comptroller and the Commissioner of Taxation and
Finance. In other words, the funds are functionally and
legally maintained by the State’s taxing authorities, a
fact that strongly favors New York’s argument that the
payment is a tax.
Nor is the payment a regulatory fee merely because
the OSA reserves the proceeds to support public health
programs in New York. Such a broad, statewide purpose is not “particular” in the way Entergy contemplates. To the contrary, it constitutes precisely the kind
of general public purpose that supports New York’s
characterization of the payment as a tax.

19a
As for the final factor, we recognize that the OSA
does not call the stewardship payment a “tax” per se.
But “‘[t]axation’ is unpopular these days, so taxing authorities avoid the term.” Empress Casino, 651 F.3d at
730. It may well be significant, sometimes even dispositive, that the legislature affirmatively attaches the label “tax” to a required payment. But the legislature’s
silent refusal to call a tax a tax, even though it raises
revenue to provide a clear general public benefit, is less
significant to our inquiry.
For these reasons, we can safely conclude that the
stewardship payment is not a regulatory fee.
B

The plaintiffs’ final argument, that the opioid
stewardship payment is a punitive fine, fares no better.
In assessing the argument, we note that the legislature
is entitled to require an industry to pay a tax to support public programs designed to address a widespread
problem caused by the industry. See Entergy, 737 F.3d
at 233 n.2. Even if we assume, as the plaintiffs claim,
that the State Legislature here imposed the stewardship payment to hold opioid manufacturers and distributors responsible for the “unusual costs” of the opioid epidemic, we would not construe it as a fine for that
reason. Id.
The plaintiffs also argue that the stewardship
payment is a fine because it is a “fixed sum” of $100
million per year. HDA Br. 38. While fines are “typically” fixed sums, the plaintiffs say, taxes are “usually”
calculated as a percentage of each sale. HDA Br. 38.
But the TIA is not limited to taxes that a State assesses based on a “usual” method of calculation. The statute broadly bars federal court interference with the
“assessment, levy or collection of any tax.” 28 U.S.C.
§ 1341 (emphasis added). That language does not sug-

20a
gest that the method of assessment bears at all on the
jurisdictional inquiry. Likely for that reason, we have
never proposed that the method of assessment is relevant to whether a state-imposed payment is a tax within the meaning of the TIA, and we decline to do so now.
The plaintiffs alternatively emphasize that the
OSA’s pass-through prohibition places the entire burden of the payment on manufacturers and distributors
by barring them from passing the costs on to purchasers. This, they contend, is a telltale feature of a punitive fine. But the pass-through prohibition is a separate and distinct element of the OSA that New York no
longer defends. On appeal, therefore, our focus is entirely on the stewardship payment. And without the
accompanying pass-through provision, the stewardship
payment functions much like other tax burdens that a
company can choose to pass on to its consumers
through price increases. No other provision prevents
the plaintiffs from passing on the costs of the payments
levied against them.
GenOn Mid-Atlantic, LLC v. Montgomery County,
650 F.3d 1021 (4th Cir. 2011), to which the plaintiffs
point us, is not to the contrary. There, the Fourth Circuit held that a county legislature’s charge on carbon
dioxide emissions was a punitive fee. In determining
that the charge was a fee, the court relied in significant
part on two facts: first, that the burden of the charge
fell on the plaintiff “alone,” and second, that GenOn,
the electricity plant subject to the charge, would “likely
be unable to pass the cost of the charge on to its customers” because it lacked the market power to do so.
Id. at 1024. GenOn’s inability to pass on the cost of the
charge was critical to the county council’s decision to
impose the charge. See id. at 1025. Neither of these
concerns are factors in this case. Here, the burden imposed by the stewardship payment is more generally

21a
borne. And because New York no longer defends the
OSA’s pass-through prohibition, nothing prevents the
plaintiffs and other similarly situated licensees from
passing on the costs of the stewardship payment to
their customers.
In summary, after considering the factors in Entergy and San Juan Cellular, we conclude that the
primary purpose of the opioid stewardship payment is
to raise revenue, not to punish or regulate the plaintiffs and other licensees who are required to make the
payment. For this reason, we hold that the payment is
a tax within the meaning of the TIA. The District
Court therefore lacked jurisdiction to declare it invalid
or to enjoin its enforcement.9
III

Because New York has “elected not to seek reversal
of the district court’s invalidation of the pass-through
prohibition, and seeks reversal only of the district
court’s invalidation of the remainder of the OSA, including the opioid stewardship payment,” New York
Br. 2–3, we need not further address the validity and
severability of the prohibition.

9

Having concluded that the TIA barred the District Court from
enjoining the stewardship payment, we do not reach New York’s
alternative argument that the District Court should have abstained under the doctrine of tax comity. See Joseph v. Hyman,
659 F.3d 215, 218-19 (2d Cir. 2011) (explaining that the doctrine
is “[m]ore embracive than the TIA because it restrains federal
courts from hearing not only cases that decrease a state’s revenue,
but also those that risk disrupting state tax administration” (quotation marks omitted)).

22a
CONCLUSION

For the foregoing reasons, we REVERSE the District Court’s judgment invalidating and enjoining enforcement of the opioid stewardship payment and all
other provisions of the OSA except for the pass-through
prohibition, the invalidation of which is not before us.

23a
APPENDIX B
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK

HEALTHCARE DISTRIBUTION
ALLIANCE,
Plaintiff,
v.
HOWARD A. ZUCKER, in his
official capacity as Commissioner
of Health of New York; and
BARBARA D. UNDERWOOD, in
her official capacity as the
Attorney General of New York,

18 Civ. 6168
(KPF)

Defendants.
ASSOCIATION FOR
ACCESSIBLE MEDICINES,
Plaintiff,
v.
BARBARA D. UNDERWOOD, in
her official capacity as the
Attorney General of New York;
and HOWARD A. ZUCKER, in
his official capacity as Commissioner of Health of New York,
Defendants.

18 Civ. 8180
(KPF)

24a
SPECGX LLC,
Plaintiff,
v.
BARBARA D. UNDERWOOD, in
her official capacity as the
Attorney General of New York;
and HOWARD A. ZUCKER, in
his official capacity as Commissioner of Health of New York,

18 Civ. 9830
(KPF)

Defendants.
OPINION AND ORDER

KATHERINE POLK FAILLA, District Judge:
New York State — like the rest of our Nation — is
in the grips of an opioid epidemic. To counter that epidemic, New York has taken proactive measures to
treat existing opioid addiction, to prevent future addiction, and to educate New Yorkers about the dangers of
opioid dependence. The centerpiece of these efforts is
the Opioid Stewardship Act (the “OSA” or the “Act”),
effective July 1, 2018, which established a $600 million
“stewardship fund” to further these goals. The plaintiffs in these three related cases do not contest the existence of the epidemic or the wisdom of countermeasures, but instead take issue with the particular means
that New York has chosen.
Plaintiff Healthcare Distribution Alliance (“HDA”)
initiated the first action on July 6, 2018, seeking (i) a
declaratory judgment that the Act was unconstitutional and (ii) a permanent injunction prohibiting its implementation. On September 12, 2018, HDA moved for
summary judgment on its claims. Two other plaintiffs,

25a
the Association for Accessible Medicines (“AAM”) and
SpecGx LLC (“SpecGx”), have presented a more surgical approach, challenging provisions of the OSA that
forbid opioid distributors and manufacturers from
passing on the costs of the OSA to downstream purchasers (the “pass-through prohibition”) as unconstitutional and moving for injunctive relief.
New York1 has moved to dismiss all three cases on
jurisdictional and prudential grounds. Proceeding from
the foundational premise that assessments for OSA’s
stewardship fund constitute a tax, New York argues
that the Court is foreclosed from hearing Plaintiffs’
challenges pursuant to the Tax Injunction Act (the
“TIA”), or, in the alternative, that the Court should abstain from so hearing under principles of comity or
Pullman abstention. As further fallback positions, New
York asks the Court to find the OSA constitutional, either in its current state or, if need be, after the excision
of the pass-through prohibition.
A review of the record in these cases2 confirms that
while the animating concerns of the OSA are plainly
valid, the method by which the Act extracts payments
from opioid manufactures and distributors to redress
those concerns violates the Dormant Commerce Clause
of the United States Constitution. The OSA is not a
tax, but is rather a regulatory penalty on opioid manufacturers and distributors. And as currently structured, it improperly burdens interstate commerce. Furthermore, the record demonstrates that New York did
1

The Court uses “New York” or the “State” in the remainder of
this Opinion to refer to Defendants in each of the three actions,
who are state officials.

2

New York has acknowledged that the record in each of the three
cases may be considered in all three cases. (Transcript of December 10, 2018 Oral Argument (“December 10 Tr.”) at 10:1-13).

26a
not intend the OSA to survive absent the pass-through
prohibition. Accordingly, and for the reasons discussed
in the remainder of this Opinion, HDA’s motion for
summary judgment is granted, as are AAM’s and
SpecGx’s motions for preliminary injunctive relief.
BACKGROUND3

A. Factual Background
1.

The Plaintiffs

The plaintiffs in the three lawsuits occupy different
links within the opioid distribution chain. Plaintiff
HDA is the national trade association for pharmaceuti3

For ease of reference, the docket entries referred to in this
Opinion are distinguished according to the docket number of the
particular action. The facts alleged herein are drawn from the
complaints in the three actions, referred to as “HDA Compl.”
(6168, Dkt. #1), “AAM Compl.” (8180, Dkt. #1), and “SpecGx
Compl.” (9830, Dkt. #1)). Additional facts have been taken from
the parties’ submissions in connection with the instant motions,
including HDA’s Local Rule 56.1 Statement of Undisputed Facts
(“HDA 56.1” (6168, Dkt. #29)), and New York’s response thereto
(“NY 56.1 Response” (6168, Dkt. #46)).
For convenience, the parties’ briefs in connection with HDA’s motion for summary judgment and New York’s cross-motion to dismiss are referred to as “HDA Br.” (6168, Dkt. #28); “NY-HDA
Opp.” (6168, Dkt. #45); “NY-HDA Br.” (6168, Dkt. #44); “HDA Reply” (6168, Dkt. #49); and “NY-HDA Reply” (6168, Dkt. #52). The
parties’ briefs in connection with AAM’s motion for a preliminary
injunction and New York’s cross- motion to dismiss are referred to
as “AAM Br.” (8180, Dkt. #9); “NY-AAM Opp.” (8180, Dkt. #26);
“NY-AAM Br.” (8180, Dkt. #25); “AAM Reply” (8189, Dkt. #30);
and “NY-AAM Reply” (8180, Dkt. #32). The parties’ briefs in connection with SpecGx’s motion for a preliminary injunction and
New York’s cross-motion to dismiss are referred to as “SpecGx
Br.” (9830, Dkt. #8); “NY-SG Opp.” (9830, Dkt. #30); “SpecGx Reply” (9830, Dkt. #32); and “NY-SG Reply” (9830, Dkt. #34).

27a
cal wholesale distributors. Its members do not manufacture, produce, or prescribe opioids. Instead, they are
responsible for coordinating receipt and delivery between and among manufacturers and pharmacies, hospitals, and other dispensers of pharmaceuticals to consumers. (HDA Compl. ¶ 9). By contrast, Plaintiff AAM
is an association representing the leading manufacturers and distributors of generic and biosimilar medicines, manufacturers and distributors of bulk active
pharmaceutical ingredients, and suppliers of other
goods and services to the generic and biosimilar pharmaceutical industry. (AAM Compl. ¶ 9). Plaintiff
SpecGx is a limited liability company organized and existing under the laws of the State of Delaware, which
develops, manufactures, and sells pharmaceutical
products and therapies, including generic opioid medications. (SpecGx Compl. ¶ 13).
HDA represents distributors of opioids, while
SpecGx and members of AAM are manufacturers of
generic opioids. None of the Plaintiffs is a manufacturer of brand-name opioids. As explained by SpecGx:
G]eneric prescription drugs are sold by two
primary paths: (i) the manufacturer sells the
products to wholesale distributors under terms
of a negotiated contract, after which the wholesale distributor then re- sells the product to retail pharmacies or other providers; and (ii) the
manufacturer may also sell to national or regional pharmacy chains, hospitals, and other
healthcare facilities.
(SpecGx Compl. ¶27).
2.

New York’s Opioid Stewardship Act

The parties’ submissions present divergent views of
the OSA’s legislative history. Ultimately, the Court’s
decision rests on the text of the OSA itself; the legisla-

28a
tive history is largely irrelevant to the constitutional
problems the Court has identified. However, given the
parties’ arguments concerning severability, the Court
provides a brief discussion of the legislative history in
order to illuminate the intentions of OSA’s sponsors
and supporters.
a. The OSA’s Introduction and Passage
As deaths continued to mount from abuse of opioids,4 Governor Andrew M. Cuomo announced that the
crisis would be a priority in his State of the State Address before the New York State Legislature. (HDA
56.1 ¶¶ 1-2). To that end, on January 16, 2018, the
Governor introduced his proposed budget, which included the proposal that would eventually become the
OSA: “Opioid manufacturers have created an epidemic.
We would have an opioid surcharge, 2 cents per milligram will be paid by the manufacture[rs] and would go
to offset the costs that we’re spending to fight opioid
abuse[,] which are multiples of the $170 million.” (Id.
at ¶¶ 3-4).
As the New York State Assembly debated the bill,
Assemblywoman Helene Weinstein, the Chair of the
Ways and Means Committee, stated that the OSA’s
cost would be borne by distributors and manufacturers
of opioid medications. (Declaration of Seth Farber dated October 17, 2018 (“Farber Decl.” (6168, Dkt. #42)),
Ex. K at 21). In response to concerns that the cost
would ultimately be borne by downstream pharmacies
4

See, e.g., Lenny Bernstein, U.S. Life Expectancy Declines Again,
A Dismal Trend Not Seen Since World War I, Wash. Post. (Nov.
29, 2018), https://www.washingtonpost.com/national/healthscience/us-life-expectancy-declines-again-a-dismal-trend-not-seensince-world-war-i/2018/11/28/ae58bc8c-f28c-11e8-bc79-68604ed889
93_story.html?utm_term=.8b338916a747 (last visited Dec. 18,
2018)

29a
(and, by extension, their customers), Member Weinstein further declared that it was “certainly not the
[drafter’s] intention [to have pharmacies pay the OSA’s
surcharge].” (Id. at 23). In subsequent discussion with
Assemblyman Richard N. Gottfried, who was and remains Chair of the Assembly Health Committee, Defendant Commissioner Howard Zucker confirmed that
the OSA was structured to ensure that payment would
not “get filtered down to the end-user[.]” (Declaration of
Andrew Kratenstein dated September 12, 2018 (“Kratenstein Decl.” (6168, Dkt. #37)), Ex. K at 174-76). In
the OSA’s final form, this payment was given a name:
the “opioid stewardship payment.” (HDA. 56.1 ¶ 6). On
April 12, 2018, the Governor signed the legislation into
law. 2018 N.Y. Sess. Laws 57, S.7507-C. (Id. at ¶ 7).
The OSA was codified in two places, at New York Public Health Law § 3323 and New York State Finance
Law § 97-aaaaa.
b. The OSA’s Text and Structure
The OSA creates a $600 million fund (the “Opioid
Stewardship Fund” or the “Fund”) that is derived from
annual assessments on pharmaceutical manufacturers
and wholesale distributors that are licensed to sell or
distribute opioid products in New York (collectively,
the “Licensees”). (HDA Compl. ¶ 13). The assessment
will be spread out over six years, with $100 million
paid annually from 2019 through 2024; each year’s assessment is calculated based on sales made the previous year and is payable the following year. (HDA 56.1
¶¶ 11-12). The assessment for each Licensee is expressed in terms of a “ratable share” and is calculated
as follows:
a) The total amount of [Morphine Milligram
Equivalents (“MMEs”)] sold or distributed in
the state of New York by the licensee for the
preceding calendar year, as reported by the li-

30a
censee pursuant to subdivision four of this section, shall be divided by the total amount of
MME sold in the state of New York by all licensees pursuant to this article to determine
the licensee payment percentage. The licensee
payment percentage shall be multiplied by the
total opioid stewardship payment. The product
of such calculation shall be the licensee’s ratable share. The department shall have the authority to adjust the total number of a licensee’s MMEs to account for the nature and use
of the product, as well as the type of entity
purchasing the product from the licensee,
when making such determination and adjust
the ratable share accordingly.
(b) The licensee’s total amount of MME sold
or distributed, as well as the total amount of
MME sold or distributed by all licensees under
this article, used in the calculation of the ratable share shall not include the MME of those
opioids which are:
(i) manufactured in New York state, but
whose final point of delivery or sale is outside of New York state;
(ii) sold or distributed to entities certified
to operate pursuant to article thirty-two of
the mental hygiene law, or article forty of
the public health law;
(c) The department shall provide to the licensee, in writing, on or before October fifteenth,
two thousand eighteen, the licensee’s ratable
share for the two thousand seventeen calendar
year. Thereafter, the department shall notify
the licensee in writing annually on or before

31a
October fifteenth of each year based on the
opioids sold or distributed for the prior calendar year.
N.Y. Pub. Health Law § 3323(5). The New York State
Department of Health (“DOH”) is both calculator and
payee of each Licensee’s ratable share. Id.
The pass-through prohibition that is at the heart of
many of Plaintiffs’ challenges is contained in two sections of the OSA. In the provision defining stewardship
payments, the OSA states, “No licensee shall pass the
cost of their ratable share amount to a purchaser, including the ultimate user of the opioid, or such licensee
shall be subject to penalties pursuant to subdivision
ten of this section.” N.Y. Pub. Health Law § 3323(2).
Later, in the penalties provision, the Act notes that
“[w]here the ratable share, or any portion thereof, has
been passed on to a purchaser by a licensee, the commissioner may impose a penalty not to exceed one million dollars per incident.” Id. § 3323(10)(c).
The ratable share payments are directed to the
Opioid Stewardship Fund. N.Y. Pub. Health Law
§ 3323(2). Of potential significance to the instant motions, the Fund is separate and not comingled with
New York State’s general fund. N.Y. State Fin. Law
§ 7-aaaaa(2). The OSA provides for the use of the Fund
as follows:
Moneys of the opioid stewardship fund, when
allocated, shall be available, subject to the approval of the director of the budget, to support
programs operated by the New York state office of alcoholism and substance abuse services
or agencies certified, authorized, approved or
otherwise funded by the New York state office
of alcoholism and substance abuse services to
provide opioid treatment, recovery and prevention and education services; and to provide

32a
support for the prescription monitoring program registry as established pursuant to section thirty-three hundred forty-three-a of the
public health law.
At the request of the budget director, the state
comptroller shall transfer moneys to support
the costs of opioid treatment, recovery, prevention, education services, and other related programs, from the opioid stewardship fund to
any other fund of the state to support this purpose.
Id. § 97-aaaaa(4)-(5).
Also of potential significance, the OSA includes a
severability provision that states in relevant part:
If any clause, sentence, paragraph, subdivision, or section of this act shall be adjudged by
any court of competent jurisdiction to be invalid, such judgment shall not affect, impair, or
invalidate the remainder thereof, but shall be
confined in its operation to the clause, sentence, paragraph, subdivision, or section directly involved in the controversy in which
such judgment shall have been rendered. It is
hereby declared to be the intent of the legislature that this act would have been enacted
even if such invalid provisions had not been included herein.
N.Y. Sess. Laws ch. 57, pt. NN, § 4 (McKinney).
c. The DOH Guidance
On June 15, 2018, DOH issued its guidance concerning interpretation of certain provisions of the OSA
(the “Guidance”). (HDA 56.1 ¶ 9; NY 56.1 Response ¶
9). The Guidance provided that the stewardship payments would be assessed on the “initial transaction in
the distribution chain when opioids are first sold or

33a
distributed within, or into, New York.” (HDA 56.1 ¶ 21;
NY 56.1 Response ¶ 21). The Guidance further explained that the pass-through prohibition was “not intended to apply to price increases that are attributable
to other ordinary changes in manufacture or distribution costs.” (HDA 56.1 ¶ 25; NY 56.1 Response ¶ 25).
d. The 2018 Assessments and the Industry’s
Response

DOH has already issued the ratable share assessments for 2018 — which, as noted, are based on 2017
sales and are payable to DOH on January 1, 2019.
(SpecGx Br. 9). SpecGx relates that its ratable share
payment is “$1,256,326.33 … based on 115,037,682
MMEs first sold and distributed by SpecGx into New
York.” (Id. at 10). SpecGx further relates, and New
York does not dispute, that the ratable share payment
per qualifying MME exceeds the average manufacturer
price (or “AMP”) of several generic opioids covered by
the OSA. (Id. at 10-11). In other words, on several of
the opioids it manufactures, SpecGx has to pay more in
assessments to the Fund than it makes in margins.
The record also contains evidence that distributors
are dealing with the OSA’s pass-through prohibition by
passing the costs of their ratable shares back up the
supply chain to manufacturers. SpecGx reports, again
without dispute, that
AmerisourceBergen Corp., one of the three national distributors of prescription medications,
advised SpecGx on October 10, 2018, that it
would, effective October 12, 2018, “no longer
accept opioid product shipments at the National Distribution Center in Columbus, Ohio intended for redistribution to AmerisourceBergen distribution centers” in New York. ….
The letter further stated that “[i]f you would
like to continue shipping opioid products to the

34a
[National Distribution Center] to New York ...
you agree to pay any tax, duty, levy, fee, assessment, tariff or any other charge of any nature imposed by any government authority on
the sale or transfer of those opioid products” —
e.g., the OSA’s Ratable Share.
(SpecGx Br. 12). At oral argument, Plaintiffs each declared that the economic consequence of the OSA could
force them to abandon the generic opioid market in
New York entirely. (Dec. 10 Tr. 33:9-13, 56:11-16, 92:193:24).
B. Procedural Background
HDA filed its complaint on July 6, 2018, asking the
Court to strike down the OSA as unconstitutional on
eight grounds, arguing that it was: (i) an unconstitutional Bill of Attainder; (ii) unconstitutionally retroactive; (iii) a violation of the Takings Clause; (iv) a violation of Substantive Due Process; (v) a violation of the
Dormant Commerce Clause based on its extraterritorial effects; (vi) a violation of the Dormant Commerce
Clause based on its creation of an undue burden on interstate commerce; (vii) unconstitutionally vague as to
the calculation of the surcharge; and (viii) unconstitutionally vague as to the calculation of the pass-through
prohibition. (6168, Dkt. #1). On September 12, 2018,
HDA filed its motion for summary judgment on substantially the same grounds. (6168, Dkt. #27, 28). On
October 17, 2018, New York filed its opposition to the
motion for summary judgment, and a cross-motion to
dismiss HDA’s complaint on five grounds: (i) the TIA
barred this Court from hearing the case; (ii) principles
of comity warranted abstention in this case; (iii) the
Pullman abstention doctrine warranted abstention in
this case; (iv) the dispute lacked ripeness; and (v)
HDA’s complaint lacked plausibility. (6168, Dkt.
#41,44, 45). On November 7, 2018, HDA filed its joint

35a
opposition to the motion to dismiss and reply in support
of summary judgment. (6168, Dkt. #49). On November
16, 2018, New York filed its reply in support of the motion to dismiss. (6168, Dkt. #52).
On September 7, 2018, AAM filed its complaint challenging the OSA along with a motion for a preliminary injunction on the grounds that the OSA’s pass-through
prohibition violated the Dormant Commerce Clause.
(8180, Dkt. #1, 8, 9). Unlike HDA, AAM did not ask the
Court to strike down the entirety of the OSA. (Id.). On
September 18, 2018, this Court accepted this case as related to HDA’s challenge, and on September 20, 2018, it
ordered the parties to follow the same briefing schedule.
(8180, Dkt #15). On October 17, 2018, New York filed its
opposition to AAM’s motion for a preliminary injunction,
and a cross-motion to dismiss the complaint that echoed
the motion filed in the HDA matter but added an argument that AAM lacked standing. (8180, Dkt. #22, 25, 26).
On November 7, 2018, AAM filed its opposition to the motion to dismiss and its reply in support of a preliminary
injunction. (8180, Dkt. #29, 30). On November 16, 2018,
New York filed its reply in support of the motion to dismiss. (8180, Dkt. #32).
On October 14, 2018, SpecGx filed a complaint and a
motion for a preliminary injunction. In addition to the
Dormant Commerce Clause issues that had been raised
by others, SpecGx further argued that the OSA was
preempted by the Drug Price Competition and Patent
Term Restoration Act, Pub. Law No. 98-417, 98 Stat.
1585 (1984), commonly known as the Hatch-Waxman
Amendments (“Hatch-Waxman”). (9830, Dkt. #1, 7, 8). On
November 5, 2018, this Court accepted this case as related to the prior two OSA challenges and set a briefing
schedule. (9830, Dkt. #25). On November 7, 2018, New
York filed its opposition to the motion, and a cross-motion
to dismiss the complaint on substantially the same

36a
grounds as the previous cases. (9830, Dkt. #27, 30). On
November 15, 2018, SpecGx filed its joint opposition to
the motion to dismiss and reply in support of a preliminary injunction. (9830, Dkt. #32). On November 27,
2018, New York filed its reply in support of the motion to
dismiss. (9830, Dkt. #34)
The Court held oral argument on December 10,
2018, and informed the parties thereafter that a decision from the Court would issue before payments were
due at the start of 2019, leaving the parties with time
to appeal.
DISCUSSION
A. The Court Denies New York’s Motions to
Dismiss
This Court will begin with an examination of New
York’s motions to dismiss each of the actions, as the
motions address the Court’s power to hear these cases.
New York has proffered arguments that are both jurisdictional and prudential, but as detailed in the remainder of this section, the Court has identified factual
and legal deficiencies as to each. Accordingly, the
Court denies New York’s motions to dismiss.
1.
Applicable Law

a. Motions to Dismiss Under Federal Rule
of Civil Procedure 12(b)(1)5

“It is a fundamental precept that federal courts are
courts of limited jurisdiction and lack the power to dis5

In its first motion to dismiss, New York raised a Rule 12(b)(6)
argument for dismissal due to lack of plausibility. (NY-HDA Br.
15-25). Perhaps tellingly, New York does not raise it in its second
and third motions. Given that the cases are considered collectively
and the issues raised in the Rule 12(b)(6) motion overlap substantially with the issues in HDA’s motion for summary judgment, the
Court will dispense with that aspect of the State’s briefing.

37a
regard such limits as have been imposed by the Constitution or Congress.” Durant, Nichols, Houston, Hodgson & Cortese-Costa, P.C. v. Dupont, 565 F.3d 56, 62
(2d Cir. 2009) (internal quotation marks omitted). In
that regard, “a district court may properly dismiss a
case for lack of subject matter jurisdiction under Rule
12(b)(1) if it lacks the statutory or constitutional power
to adjudicate it.” Aurecchione v. Schoolman Transp.
Sys., Inc., 426 F.3d 635, 638 (2d Cir. 2005) (internal
quotation marks omitted); accord Solowski v. Metro.
Transp. Auth., 723 F.3d 187, 190 (2d Cir. 2013).
A “plaintiff asserting subject matter jurisdiction
has the burden of proving by a preponderance of the
evidence that it exists.” Makarova v. U.S., 201 F.3d
110, 113 (2d Cir. 2000). In resolving a Rule 12(b)(1)
motion to dismiss, “[t]he court must take all facts alleged in the complaint as true and draw all reasonable
inferences in favor of [the] plaintiff, but jurisdiction
must be shown affirmatively, and that showing is not
made by drawing from the pleadings inferences favorable to the party asserting it.” Morrison v. Nat’l Bank
Ltd., 547 F.3d 167, 170 (2d Cir. 2008) (internal citation
and quotation marks omitted). Where subject matter
jurisdiction is contested, a district court is permitted to
consider evidence outside the pleadings, such as affidavits and exhibits. See Zappia Middle E. Constr. Co.
v. Emirate of Abu Dhabi, 215 F.3d 247, 253 (2d Cir.
2000) (“On a Rule 12(b)(1) motion challenging the district court’s subject matter jurisdiction, the court may
resolve the disputed jurisdictional fact issues by referring to evidence outside of the pleadings, such as affidavits, and if necessary, hold an evidentiary hearing.”);
accord Tandon v. Captain’s Cove Marina of Bridgeport,
Inc., 752 F.3d 239, 243 (2d Cir. 2014) (“[W]here jurisdictional facts are placed in dispute, the court has the
power and obligation to decide issues of fact by refer-

38a
ence to evidence outside the pleadings, such as affidavits.”).
b. Issues of Justiciability
As New York’s motions to dismiss make clear, several concepts of justiciability are implicated by Plaintiffs’ arguments, including the Tax Injunction Act, the
doctrine of tax comity, the doctrine of Pullman abstention, ripeness, and Article III standing. The Court outlines the law as to each in this section.
i. The Tax Injunction Act
The TIA provides a straightforward prohibition on
federal courts hearing challenges to state tax laws:
“The district courts shall not enjoin, suspend or restrain the assessment, levy or collection of any tax under State law where a plain, speedy and efficient remedy may be had in the courts of such State.” 28 U.S.C.
§ 1341. “Two conditions must be satisfied to invoke the
protection of the TIA: first, the surcharges must constitute taxes, and second, the state remedies available to
plaintiffs must be plain, speedy and efficient.” Travelers Ins. Co. v. Cuomo, 14 F.3d 708, 713 (2d Cir. 1993),
rev’d on other grounds, 514 U.S. 645 (1995) (internal
quotation marks omitted). As the parties do not here
dispute the question of state remedies, the Court focuses on the first element, whether the OSA can be
classified as a tax.
The last word from the Second Circuit on what
constitutes a tax for TIA purposes came in Entergy Nuclear Vermont Yankee, LLC v. Shumlin, where the
Court held that “the principal identifying characteristic
of a tax, as opposed to some other form of stateimposed financial obligation, is whether the imposition
‘serve[s] general revenue-raising purposes.’” 737 F.3d
228, 231 (2d Cir. 2013). The Circuit contrasted this
with other state-mandated payments, which are “di-

39a
rectly allocated to the agency that administers the collection, for the purpose of providing a narrow benefit to
or offsetting costs for the agency.” Id.
The leading case from outside the Circuit, which
the Second Circuit cited favorably in Entergy, is the
First Circuit’s decision in San Juan Cellular Tel. Co. v.
Pub. Serv. Comm’n of Puerto Rico, 967 F.2d 683, 685
(1st Cir. 1992). Then- Chief Judge Breyer explained
that taxes and fees existed on a continuum and, further, that distinguishing payment systems along this
continuum requires an examination of the revenue’s
ultimate use:
Courts have had to distinguish “taxes” from
regulatory “fees” in a variety of statutory contexts. Yet, in doing so, they have analyzed the
legal issues in similar ways. They have
sketched a spectrum with a paradigmatic tax
at one end and a paradigmatic fee at the other.
The classic “tax” is imposed by a legislature
upon many, or all, citizens. It raises money,
contributed to a general fund, and spent for the
benefit of the entire community…. The classic
“regulatory fee” is imposed by an agency upon
those subject to its regulation…. It may serve
regulatory purposes directly by, for example,
deliberately discouraging particular conduct by
making it more expensive.… Or, it may serve
such purposes indirectly by, for example, raising money placed in a special fund to help defray the agency’s regulation- related expenses[.]
Courts facing cases that lie near the middle of
this spectrum have tended (sometimes with
minor differences reflecting the different statutes at issue) to emphasize the revenue’s ultimate use, asking whether it provides a general

40a
benefit to the public, of a sort often financed by
a general tax, or whether it provides more narrow benefits to regulated companies or defrays
the agency’s costs of regulation.
Id. (citations omitted). The Second Circuit in Entergy
described the San Juan Cellular factors as: (i) the revenue’s ultimate use; (ii) the nature of the entity imposing the charge; and (iii) the population subject to the
charge. 737 F.3d at 232-33.
Courts are also guided by the law governing the
TIA’s federal analogue, the Anti-Injunction Act (“AIA”),
when determining whether a revenue-raising measure
is a tax. See Direct Mktg. Ass’n v. Brohl, 135 S. Ct.
1124, 1129 (2015) (“We assume that words used in both
Acts are generally used in the same way[.]”). With reference to federal taxes, the AIA provides that “no suit
for the purpose of restraining the assessment or collection of any tax shall be maintained in any court by any
person, whether or not such person is the person
against whom such tax was assessed.” 26 U.S.C.
§ 7421(a). On the specific issue of what constitutes a
tax, the Supreme Court has instructed lower courts to
examine how Congress labels the payment in the legislation: “label[ing] this exaction a ‘penalty’ rather than
a ‘tax’ is significant because the Affordable Care Act
describes many other exactions it creates as ‘taxes.’
Where Congress uses certain language in one part of a
statute and different language in another, it is generally presumed that Congress acts intentionally.” Nat’l
Fed’n of Indep. Bus. v. Sebelius, 567 U.S. 519, 544
(2012). Notably, the Court determined that the “exaction” in Sebelius was a “tax” for purposes of its underlying constitutional analysis, even as it declined to find
it a “tax” for AIA purposes. Id. at 561-63.

41a
ii. The Tax Comity Doctrine
New York’s second argument for dismissal relies on
the doctrine of tax comity. Unlike the TIA, tax comity
is a prudential bar to standing, rather than a jurisdictional one. See Brohl, 135 S. Ct. at 1134. “[C]omity is
‘[m]ore embracive’ than the TIA because it restrains
federal courts from hearing not only cases that decrease a state’s revenue, but also those that ‘risk disrupting state tax administration.’” Joseph v. Hyman,
659 F.3d 215, 218-19 (2d Cir. 2011).
The ordinary case in which courts rely on comity
rather than the TIA is one in which the challenge to a
tax scheme would result in increased revenue to the
state, as the Supreme Court has limited the TIA to
cases where a challenge would limit state tax collection
rather than expand it. Joseph, 659 F.3d at 218-19. The
Supreme Court’s decision in Levin v. Commerce Energy, Inc., 560 U.S. 413 (2010), provides the key case for
understanding the distinction. While the plaintiffs, a
group of natural gas marketers, did not seek to block
enforcement of an Ohio tax, the remedy they sought
would require either a reduction in their tax liability or
a reshaping of the Ohio tax code. Id. at 429. The Court
held that comity counseled against federal jurisdiction
even though the TIA did not bar the claim. No party in
Levin disputed that the case was related to Ohio’s tax
code. Here, in sharp contrast, no Plaintiff concedes that
the OSA is a tax or that any of its provisions is designed to enforce a tax.
iii. The Pullman Abstention Doctrine
New York’s third argument for dismissal relies on
the doctrine of Pullman abstention. Pullman abstention is proper when a state court determination of a
question of state law might moot or alter a federal constitutional question: “Abstention under the Pullman

42a
doctrine may be appropriate when three conditions are
met: [i] an unclear state statute is at issue; [ii] resolution of the federal constitutional issue depends on the
interpretation of the state law; and [iii] the law is susceptible ‘to an interpretation by a state court that
would avoid or modify the federal constitutional issue.’”
Vermont Right to Life Comm., Inc v. Sorrell, 221 F.3d
376, 385 (2d Cir. 2000). However, even if all three conditions are satisfied, Pullman does not require abstention. “The doctrine of abstention … is an extraordinary
and narrow exception to the duty of a District Court to
adjudicate a controversy properly before it.” Id. (citing
Colorado River Water Conservation Dist. v. United
States, 424 U.S. 800, 813 (1976)). “If the state statute
in question, although never interpreted by a state tribunal, is not fairly subject to an interpretation which
will render unnecessary or substantially modify the
federal constitutional question, it is the duty of the
federal court to exercise its properly invoked jurisdiction.” Harman v. Forssenius, 380 U.S. 528, 534-35
(1965).
iv. The Requirement of Ripeness
New York’s arguments for dismissal consider not
only the propriety of the court, but also that of the putative litigants. “To be justiciable, a cause of action
must be ripe — it must present ‘a real, substantial controversy, not a mere hypothetical question.’” Nat’l Org.
for Marriage, Inc. v. Walsh, 714 F.3d 682, 687 (2d Cir.
2013) (quoting AMSAT Cable Ltd. v. Cablevision of
Conn., 6 F.3d 867, 872 (2d Cir. 1993)). “Ripeness ‘is
peculiarly a question of timing.’” Id. (quoting Thomas
v. Union Carbide Agric. Prods. Co., 473 U.S. 568, 580
(1985)). Claims are not ripe if they depend upon “contingent future events that may not occur as anticipated, or indeed may not occur at all.” Id. at 580-81. The
ripeness doctrine’s principal purpose is “to prevent the

43a
courts, through avoidance of premature adjudication,
from entangling themselves in abstract disagreements.” Abbott Labs. v. Gardner, 387 U.S. 136, 148
(1967).
“There are two forms of ripeness: constitutional
and prudential.” Vullo v. Office of Comptroller of the
Currency, No. 17 Civ. 3574 (NRB), 2017 WL 6512245,
at *8 (S.D.N.Y. Dec. 12, 2017) (citing Simmonds v.
INS, 326 F.3d 351, 356-57 (2d Cir. 2003)). The former
is “a specific application of the actual injury aspect of
Article III standing.” Walsh, 714 F.3d at 688. It “prevents courts from declaring the meaning of the law in a
vacuum and from constructing generalized legal rules
unless the resolution of an actual dispute requires it.”
Simmonds, 326 F.3d at 357. Prudential ripeness, by
contrast, is a tool a court may employ, in its discretion,
when “the case will be better decided later and [ ] the
parties will not have constitutional rights undermined
by the delay.” Id. “Prudential ripeness [is employed by
courts] to enhance the accuracy of their decisions and
to avoid becoming embroiled in adjudications that may
later turn out to be unnecessary or may require premature examination of … issues that time may make easier or less controversial.” Id.
v. The Requirement of Standing
Article III of the Constitution limits federal courts’
jurisdiction to “cases” and “controversies.” U.S. Const.,
art. III, § 2. “The doctrine of standing gives meaning to
these constitutional limits by ‘identify[ing] those disputes which are appropriately resolved through the judicial process.’” Susan B. Anthony List v. Driehaus, 573
U.S. 149, 156 (2014) (quoting Lujan v. Defenders of
Wildlife, 504 U.S. 555, 560 (1992)). The Supreme Court
has “established that the ‘irreducible constitutional
minimum’ of standing consists of three elements.”
Spokeo, Inc. v. Robins, 136 S. Ct. 1540, 1547 (2016)

44a
(quoting Lujan, 504 U.S. at 560). “The plaintiff must
have [i] suffered an injury in fact, [ii] that is fairly
traceable to the challenged conduct of the defendant,
and [iii] that is likely to be redressed by a favorable judicial decision.” Id.
“To establish injury in fact, a plaintiff must show
that he or she suffered an invasion of a legally protected interest that is concrete and particularized and actual or imminent, not conjectural or hypothetical.”
Spokeo, 136 S. Ct. at 1548 (internal quotations marks
and citation omitted). “‘[T]hreatened injury must be
certainly impending to constitute injury in fact,’ and …
‘[a]llegations of possible future injury’ are not sufficient.” Clapper v. Amnesty Intern. USA, 568 U.S. 398,
409 (2013) (quoting Whitmore v. Ark., 495 U.S. 149,
158 (1990)) (emphases in Clapper).
2.

Analysis

a. The TIA Does Not Bar a Challenge to the
OSA

Several of New York’s arguments in favor of dismissal depend upon a finding that the ratable share
assessment is a tax, and so the Court begins its analysis with this antecedent issue. While the OSA does
raise revenue, an examination of the relevant law
makes clear that the OSA is not a tax.
“[T]he principal identifying characteristic of a tax,
as opposed to some other form of state-imposed financial obligation, is whether the imposition ‘serve[s] general revenue-raising purposes.’ Whether a measure
serves ‘general revenue-raising purposes’ in turn depends on the disposition of the funds raised.” Entergy,
737 F.3d at 231. Given that the OSA expressly segregates the revenue generated from the surcharge from
the State’s general fund, see N.Y. Fin. Law § 97aaaaa(2), New York must argue around the “disposi-

45a
tion of the funds.” It attempts to do so by stating that
the surcharge contributes to general revenue, as it secures “funding for opioid abuse prevention, treatment
and education programs available to the general public[.]” (NY-HDA Br. 8).
The Second Circuit has clarified, however, that
“general revenue” does not merely mean that the funds
provide some public benefit, and that courts must consider the state’s actual disposition of the funds in the
TIA analysis. See, e.g., Entergy, 737 F.3d at 231 (“Nothing in the statute reserves the proceeds of the Generating Tax for any particular purpose.”); Travelers Ins. Co,
14 F.3d at 713 (“Notwithstanding the primary purposes ascribed to the surcharges by the State, [the surcharges] raise revenue which is ultimately paid into
the State’s general fund.”); Keleher v. New England
Tel. & Tel. Co., 947 F.2d 547, 549 (2d Cir. 1991) (the
word “tax” under the TIA “encompasses any state or local revenue collection device,” including a city-assessed
public utility “franchise fee” because the money raised
was treated as part of the city’s “general revenue”).
Here, the OSA charges a regulated industry to create a
segregated fund that is directed toward specific purposes closely intertwined with the industry in question.
These straightforward facts undercut any argument
that the OSA is a tax.
When additional factors from the San Juan Cellular and Sebelius cases are considered, the weaknesses
inherent in the State’s arguments are amplified. San
Juan Cellular requires consideration of both the nature of the entity imposing the charge and the population subject to the charge. 967 F.2d at 685. Under the
OSA, DOH is the collector of the ratable share. N.Y.
Pub. Health Law § 3323(5). “Here, as in most cases,
this factor is closely linked to the ultimate destination
of the revenue[.]” Entergy, 737 F.3d at 232. Examining

46a
the population subject to the charge provides the State
a slightly better argument, as Entergy suggested that
an exaction on one entity could remain a tax, and in
this case there are many entities subject to the tax.
However, the Second Circuit also suggested that “[t]he
category of persons or entities subject to such taxes …
be defined by general and open-ended criteria, even if
only a few entities, or one entity alone, are subject to
the tax.” Id. at 233. In this case, at least as regards the
2018 ratable share assessments due on January 1,
2019, the class of entities is not general, but rather is a
specific and defined group that can do nothing to
change a preexisting (and, it bears noting, retroactively
imposed) liability. The San Juan Cellular factors provide further evidence that the OSA is a regulatory fee,
not a tax.
The Supreme Court’s guidance in Sebelius, in the
analogous context of the AIA, also counsels against applying the TIA on these facts. Sebelius looked primarily
at the statutory text, which did not define the Affordable Care Act’s mandate as a tax in rejecting an AIA argument. 567 U.S. at 543-46. The OSA studiously avoids
the use of the word “tax” throughout its provisions, referring exclusively to “ratable shares,” “stewardship
payments,” and “penalties.” While the use of the word
“tax” is certainly not dispositive, the language of the
OSA is another factor that weighs against the State. If
the line between taxes and fees is “a spectrum with a
paradigmatic tax at one end and a paradigmatic fee at
the other,” San Juan Cellular, 967 F.2d at 685, the
OSA is indisputably closer to the fee end.
Even if OSA’s stewardship payments were to be
considered a tax, its pass-through prohibition, on
which AAM and SpecGx focus their attacks, would not
be. New York acknowledged during oral argument the
weakness of the TIA arguments when applied to the

47a
pass-through prohibition. (Dec. 10 Tr. 18:20-19:6). It
did so with good reason, as the Second Circuit has previously determined that a pass-through prohibition engrafted upon a revenue-raising measure is not a tax for
TIA purposes:
As we have indicated the tax purpose of the
legislation was to raise funds for the mass
transit system. However, the purpose of the
anti-pass through provision was not to raise
taxes but “to do nothing that will contribute to
further increases in the price of petroleum
products to (New York) consumers” and “to
prevent such gross receipts tax from fueling inflation by prohibiting the pass through of such
tax to the consumers of this state.” N.Y. Act,
ch. 272, s 1.
This objective is certainly not an exercise of a
taxing power but a police power affecting the
price structure of petroleum products. We
agree that the State has the right to place the
legal incidence of the tax upon the oil companies; it has selected its target. But in barring
the targets of the tax from recovering their
costs from the consumer directly or indirectly,
the State has gone beyond its taxing powers
and has employed its police powers
Mobil Oil Corp. v. Tully, 639 F.2d 912, 918 (2d Cir.
1981).
New York proffers a distinction based on its role as
a purchaser of opioids through Medicaid and, somewhat curiously, suggests that the holding in Mobil Oil
rested at least in part on the statute’s goal of fighting
inflation. (NY-HDA Br. 8). In point of fact, the Circuit
made clear that its decision rested on the nature of
pass-through prohibitions themselves: “No one questions the right of the State of New York to place the le-

48a
gal incidence of the tax upon the oil companies but it is
an entirely different matter for the legislature to instruct the person taxed that he cannot raise the resources to pay the tax by increasing the price of his
product.” 639 F.2d at 918. In short, a challenge to the
pass-through prohibition is clearly not barred by the
TIA.
b. Comity Is Not Relevant to Consideration
of the OSA

As this Court does not consider either the OSA
stewardship payments or its pass-through prohibition
to be a tax, its analysis of tax comity is brief. While it is
true that comity sweeps more broadly than the TIA, it
does not encompass regulatory fees or penalties. Comity merely provides expanded grounds for federal courts
to stand down in the tax context.
New York points to comity to argue that even if
portions of the Act were classified as penalties rather
than taxes, this Court must still refrain from hearing
the case as it could disrupt the administration of state
taxes. (NY-HDA Br. 23:22-24:4). For this proposition, it
relies on the Second Circuit’s holding in Abuzaid v.
Mattox, where comity was invoked to bar a challenge to
the penalty provision of New York’s cigarette tax: “Regardless of whether assessments made under N.Y. Tax
Law § 481(1)(b)(i) might be regarded as penalties imposed under the state’s tax laws designed to encourage
payment of taxes, rather than as taxes, they are indisputably part of the state’s tax system.” 726 F.3d 311,
315-16 (2d Cir. 2013). Significantly, however, the parties in Abuzaid conceded that the underlying scheme
that the State sought to enforce was a tax.
Had this Court agreed that the stewardship payments were a tax, comity would be only slightly more
relevant, inasmuch as New York focuses its comity arguments on the pass-through prohibition. Even then,

49a
the comity doctrine would not counsel this Court from
abstaining from consideration of the pass- through
prohibition. As noted, Abuzaid, on which New York
principally relies, rested on a challenge to the enforcement of New York’s criminal tax law, which makes it a
felony to “‘willfully attempt[ ] in any manner to evade
or defeat … [cigarette] taxes’ and to ‘willfully possess[ ]
... for the purpose of sale’ unlawfully stamped cigarette.” Id. at 313. As AAM correctly points out, a taxpayer challenging the enforcement by the taxing authority of a criminal provision of the state tax code
clearly poses a threat to state taxing power, in a way
that a challenge to the pass-through prohibition does
not. (AAM Br. 13 (“[T]his case does not involve ‘state
taxing authorities,’ does not involve taxpayer-plaintiffs,
does not involve criminal tax violators, and does not
pose a threat to the state’s taxing apparatus.”)). Striking down the OSA’s pass-through prohibition would allow New York to collect the exact same amount of
money from the exact same parties through the exact
same means; all that would change is those bearing the
cost of the tax. The tax comity doctrine is designed to
protect a state’s taxing apparatus, not the state’s contemplation (or hopes) as to how market forces will respond to that apparatus. As such, even if the OSA
stewardship payments were a tax, comity would not
bar a challenge to the pass-through prohibition.
c. Pullman Abstention Is Not Appropriate
to Consideration of the OSA

Pullman abstention is not appropriate in this case,
as no construction of the OSA would render it constitutional. As with the question of comity, New York’s
Pullman claim is largely focused on the pass-through
prohibition. (See NY-HDA Br. 12-15). And as HDA
points out, such a narrow focus overlooks many of
HDA’s direct challenges to the stewardship payments.

50a
(HDA Reply 11 (“As to Counts 1 (bill of attainder), 2
(retroactivity), 3 (takings), 4 (substantive due process),
5 (discrimination against out-of-state distributors), and
7 (undue burden), the State has not identified an ‘unclear state law issue’ whose resolution would inform a
federal issue.”)). The facts that (i) abstention “is an extraordinary and narrow exception to the duty of a District Court to adjudicate a controversy properly before
it[,]” Colorado River, 424 U.S. at 813; (ii) all parties
have an interest in a speedy and efficient resolution to
the case; and (iii) certain claims fall outside of New
York’s arguments for abstention, compel the Court to
hear these cases. However, even as to the counts where
New York alleges statutory ambiguity, the Court does
not find Pullman abstention to be appropriate.
While the Court discusses the issue at greater
length in its discussion of the Dormant Commerce
Clause, see infra, it notes at this juncture that the
OSA’s text regarding the pass-through prohibition is
straightforward. First, “No licensee shall pass the cost
of their ratable share amount to a purchaser, including
the ultimate user of the opioid, or such licensee shall
be subject to penalties pursuant to subdivision ten of
this section.” N.Y. Pub. Health Law § 3323(2). Second,
“Where the ratable share, or any portion thereof, has
been passed on to a purchaser by a licensee, the commissioner may impose a penalty not to exceed one million dollars per incident.” Id. § 3323(10)(c). Any plausible reading of these provisions prohibits the seller from
passing “any portion” of the costs of the OSA downstream to New York opioid purchasers. But it is naïveté to believe that the Licensees will simply absorb the
additional costs, particularly given the record evidence
of economic turmoil faced by manufacturers of generic
opioids if they were to do so. If companies cannot pass
the costs to consumers anywhere, the OSA raises is-

51a
sues of extraterritoriality. If companies cannot pass the
costs on to New York consumers of opioids, but can
pass them on to non-New York opioid purchasers, the
OSA raises issues of interstate discrimination.
New York’s predicament is placed in sharp relief in
its memorandum in support of its motion to dismiss
the case brought by AAM, which case only raised
Commerce Clause arguments, though of two types. In
relevant part, New York argued:
Pullman abstention is also appropriate because a state court could moot plaintiff’s First
Cause of Action by interpreting the passthrough provision to apply solely to opioid
sales or distributions occurring in New York.
Similarly, plaintiff’s Second Cause of Action
could be mooted by a broader interpretation
that applies the provision to all sales and distributions.
(NY-AAM Br. 13-14). Fatal to New York’s argument is
its inability to offer a plausible reading of the OSA that
would moot both challenges, and indeed there is no
reading that would moot all Dormant Commerce
Clause problems. New York’s attempt to find some
reading of the pass-through prohibition that could
eliminate the effect on interstate commerce is akin to a
search for a chemical reaction that destroys energy;
costs in a single market, like energy in a closed system,
do not simply disappear, but must be absorbed elsewhere.
New York also attempts to argue around this problem by pointing to the undefined term “incident” for
what violates the pass-through provision, suggesting
that “incident” may be defined narrowly to minimize
problems. However, no matter how broadly or narrowly
New York defines an incident, so long as the monetary
penalty exists, it would raise questions under the Com-

52a
merce Clause. Any minor ambiguity “cannot avoid the
necessity for constitutional adjudication.’” Naprstek v.
City of Norwich, 545 F.2d 815, 818 (2d Cir. 1976).
d. The Challenges to the OSA Are Ripe for
Review

As noted, New York’s arguments include those that
posit inadequacies of the Court and those that posit inadequacies of the litigants. The first argument in the
latter category, New York’s ripeness challenge, is undercut by the payment requests it has already sent to
the Licensees. Claims are not ripe if they depend upon
“contingent future events that may not occur as anticipated, or indeed may not occur at all.” Union Carbide,
473 U.S. at 580-81. The stewardship payment is certainly not a contingent future event, as the payments
are due in a few short weeks. Therefore, a challenge
with respect to the stewardship payments is certainly
ripe for review.
Here as well, New York’s argument is targeted
primarily at the challenges to the pass-through prohibition. It argues that since “the Act’s pass-through
prohibition cannot be applied until at least next year,
Plaintiff[s] can hardly claim that any potential harm is
imminent.” (NY-AAM Br. 16). However, “[a]n allegation of future injury may suffice if the threatened injury is ‘certainly impending,’ or there is a ‘substantial
risk’ that the harm will occur.” Susan B. Anthony List,
573 U.S. at 158 (citation omitted). Such is the case
here.
Beginning January 1, 2019, Plaintiffs face a substantial risk that on each opioid sale they make, New
York will impose a penalty of $1 million. Counsel for
New York did not disavow an intention to enforce the
pass-through prohibition at oral argument. (See Dec.
10 Tr. 64:5-13). And there are further financial consequences: AmerisourceBergen Corp. has informed the

53a
manufacturers with which it deals that they will be required to take on the full cost of the stewardship payments if they intend to continue making sales to New
York, and SpecGx has announced its plans to exit the
New York market. (SpecGx Reply 19). As with other
aspects of its case, New York is not just arguing
against Plaintiffs, but is also arguing against fundamental precepts of economics. Once the pass-through
prohibition goes into effect on January 1, 2019, if not
sooner, the harm is already present and no longer imminent. Therefore, the challenge is ripe for review.
e. AAM and SpecGx Have Standing to Bring
Their Claims

New York does not challenge HDA’s standing, but
does challenge AAM’s and SpecGx’s standing to bring
Dormant Commerce Clause claims on several bases.
(See NY-AAM Br. 17-18; NY-SG Opp. 6-9). The Court
rejects these challenges.
In evaluating standing, “the court must be careful
not to decide the questions on the merits for or against
the plaintiff and must therefore assume that on the
merits the plaintiffs would be successful in their
claims.” City of Waukesha v. EPA, 320 F.3d 228, 235
(D.C. Cir. 2003); see also Parker v. Dist. of Columbia,
478 F.3d 370, 377 (D.C. Cir. 2007), aff’d by Dist. of Columbia v. Heller, 554 U.S. 570 (2008). “While standing
and merits questions frequently overlap, standing is
fundamentally about the propriety of the individual litigating a claim irrespective of its legal merits[.]” Lyons
v. Litton Loan Servicing LP, 158 F. Supp. 3d 211, 220
(S.D.N.Y. 2016) (citation omitted).
If the Court assumes, as it must in this setting,
that Plaintiffs will prevail on their claims of discrimination in violation of the Commerce Clause, then the
injury is clear: Plaintiffs are forbidden from taking a
constitutionally permissible action, i.e., raising the

54a
price of their drugs, by unconstitutional means, i.e., the
unconstitutional pass-through prohibition. To prove
standing, Plaintiffs need to prove they are
under threat of suffering “injury in fact” that is
concrete and particularized; the threat must be
actual and imminent, not conjectural or hypothetical; it must be fairly traceable to the challenged action of the defendant; and it must be
likely that a favorable judicial decision will
prevent or redress the injury.
Summers v. Earth Island Inst., 555 U.S. 488, 493
(2009). Here, the injury is a million-dollar-per-incident
penalty that could hit Plaintiffs on January 1, 2019, if
not sooner. Striking the provision would remove the
challenged action and redress the injury. The injury
here is clear, and AAM’s standing follows. (AAM Reply
2).
New York’s second standing argument is directed
toward SpecGx alone, and it relates to the manufacturer’s New York factory. “Here, to the extent that plaintiff manufactures its opioid products and sells them in
New York State, it cannot assert a Commerce Clause
injury based on such action because its injuries would
not be traceable to its participation in interstate commerce[.]” (NY-SG Opp. 8). New York relies on Coalition
for Competitive Electricity, Dynergy, Inc. v. Zibelman,
which held that “[t]o show standing for their dormant
Commerce Clause claim, plaintiffs must demonstrate
that their alleged injuries are traceable to (the ‘result
of,’ or ‘a consequence of’) discrimination against interstate commerce.” 906 F.3d 41, 58 (2d Cir. 2018). However, the standing portion of the Zibelman decision
made clear that “Plaintiffs’ injuries “would continue to
exist even if the [legislation] were cured” of the alleged
discrimination.” Id. Here, by contrast, SpecGx could
recover the costs of the OSA through passing on the

55a
price in its in-state sales and receive redress for its injuries, were it not for the pass-through prohibition.
SpecGx has placed uncontested evidence into the record that the pass-through prohibition will make its
sales to the New York market economically infeasible.
(SpecGx Reply 17). In this litigation, New York seeks
to shift the blame for this consequence onto third parties, such as AmerisourceBergen, that choose to charge
back the costs, but the New York legislature clearly intended this precise result when it included the passthrough prohibition. New York cannot now claim that
its actions are not causing injury to manufacturers like
SpecGx, and SpecGx has standing to bring its claims.
As the above analysis explains, the Court has rejected New York’s challenges to its ability to hear
Plaintiffs’ claims, as well as its challenges to each
Plaintiff’s respective ability to bring such claims. Because, as demonstrated in the next section, at least one
claim common to all Plaintiffs succeeds, New York’s
motions to dismiss are denied as to all parties.
B. The Court Grants HDA’s Motion for Summary
Judgment

As the Court considers the merits of Plaintiffs’
claims, it begins with HDA’s motion for summary
judgment. It does so because were HDA to be successful with any of its claims, it might impact the Court’s
resolution of AAM’s and SpecGx’s motions for preliminary injunctions. More specifically, the Court begins
with a discussion of the Dormant Commerce Clause, as
all three Plaintiffs allege that the pass-through prohibition violates the Dormant Commerce Clause. The
Court agrees and holds the pass-through prohibition
unconstitutional. The Court then discusses severability, as an examination of the OSA absent the passthrough prohibition is unnecessary, if the prohibition is
not severable. The Court finds that the provision is not

56a
severable and thus grants HDA’s motion for summary
judgment.
1.

Applicable Law

a. The Standard for Summary Judgment
Motions

Under Federal Rule of Civil Procedure 56(a), a
“court shall grant summary judgment if the movant
shows that there is no genuine dispute as to any material fact and the movant is entitled to judgment as a
matter of law.” Fed. R. Civ. P. 56(a); Celotex Corp. v.
Catrett, 477 U.S. 317, 322 (1986).6 A fact is “material” if
it “might affect the outcome of the suit under the governing law,” and is genuinely in dispute “if the evidence is such that a reasonable jury could return a
verdict for the nonmoving party.” Anderson v. Liberty
Lobby, Inc., 477 U.S. 242, 248 (1986); see also Jeffreys
v. City of New York, 426 F.3d 549, 553 (2d Cir. 2005)
(citing Anderson).
The moving party bears the initial burden of
demonstrating “the absence of a genuine issue of material fact.” Celotex, 477 U.S. at 323. The movant may
discharge its burden by showing that the nonmoving
party has “fail[ed] to make a showing sufficient to establish the existence of an element essential to that
party’s case, and on which that party will bear the
6

The 2010 Amendments to the Federal Rules of Civil Procedure
revised the summary judgment standard from a genuine “issue” of
material fact to a genuine “dispute” of material fact. See Fed. R.
Civ. P. 56, advisory comm. notes (2010 Amendments) (noting that
the amendment to “[s]ubdivision (a) … chang[es] only one word —
genuine ‘issue’ becomes genuine ‘dispute.’ ‘Dispute’ better reflects
the focus of a summary-judgment determination.”). This Court uses the post-amendment standard, but continues to be guided by
pre-amendment Supreme Court and Second Circuit precedent
that refer to “genuine issues of material fact.”

57a
burden of proof at trial.” Celotex, 477 U.S. at 322; see
also Selevan v. N.Y. Thruway Auth., 711 F.3d 253, 256
(2d Cir. 2013) (finding summary judgment appropriate
where the non- moving party failed to “come forth with
evidence sufficient to permit a reasonable juror to return a verdict in his or her favor on an essential element of a claim” (internal quotation marks omitted)).
If the moving party meets this burden, the nonmoving party must “set forth specific facts showing
that there is a genuine issue for trial” using affidavits
or otherwise, and cannot rely on the “mere allegations
or denials” contained in the pleadings. Anderson, 477
U.S. at 248; see also Wright v. Goord, 554 F.3d 255,
266 (2d Cir. 2009). In other words, the nonmoving party “must do more than simply show that there is some
metaphysical doubt as to the material facts,” Matsushita Elec. Indus. Co. v. Zenith Radio Corp., 475 U.S. 574,
586 (1986), and cannot rely on “mere speculation or
conjecture as to the true nature of the facts to overcome a motion for summary judgment,” Knight v. U.S.
Fire Ins. Co., 804 F.2d 9, 12 (2d Cir. 1986).
“When ruling on a summary judgment motion, the
district court must construe the facts in the light most
favorable to the non-moving party and must resolve all
ambiguities and draw all reasonable inferences against
the movant.” Dallas Aerospace, Inc. v. CIS Air Corp.,
352 F.3d 775, 780 (2d Cir. 2003). However, in considering “what may reasonably be inferred” from witness
testimony, the court should not accord the non-moving
party the benefit of “unreasonable inferences, or inferences at war with undisputed facts.” Berk v. St. Vincent’s Hosp. & Med. Ctr., 380 F. Supp. 2d 334, 342
(S.D.N.Y. 2005) (citing County of Suffolk v. Long Island
Lighting Co., 907 F.2d 1295, 1318 (2d Cir. 1990)).

58a
b. The Dormant Commerce Clause
The Supreme Court has consistently held that in
addition to providing an affirmative grant of authority
to Congress, the Commerce Clause encompasses an
implicit or “dormant” limitation on the authority of the
States to enact legislation affecting interstate commerce. See, e.g., Hughes v. Oklahoma, 441 U.S. 322,
326 (1979); H.P. Hood & Sons, Inc. v. Du Mond, 336
U.S. 525, 534-535 (1949). As mentioned above in the
discussion of Pullman abstention, New York offers two
readings of the OSA. One raises issues of extraterritoriality and the other issues of discrimination against
out-of-state opioid transactions.
i. Extraterritorial Application of State
Law

The absolute constitutional prohibition on state
regulation of commerce occurring beyond the state’s
borders is clear: “Taken together, … cases concerning
the extraterritorial effects of state economic regulation
stand ... for the following proposition[]: … the ‘Commerce Clause’ … precludes the application of a state
statute to commerce that takes place wholly outside of
the State’s borders[.]” Healy v. Beer Inst., Inc., 491 U.S.
324, 336 (1989). “[A] statute that directly controls
commerce occurring wholly outside the boundaries of a
State exceeds the inherent limits of the enacting
State’s authority and is invalid regardless of whether
the statute’s extraterritorial reach was intended by the
legislature.” Id.
The Constitution is concerned with the maintenance of a national market for interstate commerce.
Therefore, even if a statute “may not in explicit terms
seek to regulate interstate commerce, it [can do] so
nonetheless by its practical effect and design.” C & A
Carbone, Inc. v. Town of Clarkstown, N.Y., 511 U.S.
383, 394 (1994).

59a
ii. Discrimination Against Interstate
Commerce

The Dormant Commerce Clause also contains an
antidiscrimination principle. This principle “‘follows
inexorably from the basic purpose of the Clause’ to
prohibit the multiplication of preferential trade areas
destructive of the free commerce anticipated by the
Constitution.” Maryland v. Louisiana, 451 U.S. 725,
754 (1981) (internal citations omitted).
“The paradigmatic example of a law discriminating
against interstate commerce is the protective tariff or
customs duty, which taxes goods imported from other
States, but does not tax similar products produced in
State.” W. Lynn Creamery, Inc. v. Healy, 512 U.S. 186,
193 (1994). However, as the Supreme Court has recognized, states are aware of the obvious constitutional
problems of tariffs, and so few cases address clear tariffs. “Instead, the cases are filled with state laws that
aspire to reap some of the benefits of tariffs by other
means.” Id.
In examining whether regulatory actions amount
to impermissible tariffs, the Supreme Court has looked
at whether they constitute “economic protectionism —
that is, regulatory measures designed to benefit instate economic interests by burdening out-of-state
competitors.” New Energy Co. of Indiana v. Limbach,
486 U.S. 269, 273 (1988). The Second Circuit also provides for an examination of whether the challenged action “shifts the costs of regulation onto other states,
permitting in-state lawmakers to avoid the costs of
their political decisions.” Brown & Williamson Tobacco
Corp. v. Pataki, 320 F.3d 200, 208 (2d Cir. 2003). If a
regulation “unambiguously discriminates in its effect,
it almost always is ‘invalid per se.’” Id. at 209.

60a
iii. The Pike Balancing Test
Finally, even where a statute does not discriminate
on its face, it may violate the Dormant Commerce
Clause under the balancing test offered in Pike v.
Bruce Church, Inc., 397 U.S. 137, 142 (1970). The Pike
test evaluates whether the statute’s burdens on interstate commerce are “clearly excessive in relation to the
putative local benefits.” Brown & Williamson, 320 F.3d
at 209. Although Pike allows for invalidation of statue
statutes that are facially neutral, it does not invite a
court to undertake its own analysis of the wisdom of
legislation by analyzing the benefits and goals of legislation. Instead, for a statute to fail the Pike test, it “at
a minimum, must impose a burden on interstate commerce that is qualitatively or quantitatively different
from that imposed on intrastate commerce.” National
Elec. Mfrs. Ass’n v. Sorrell, 272 F.3d 104, 109 (2d Cir.
2003). “Under Sorrell, a burden that seems incommensurate to the statute’s gains survives Pike as long as it
affects intrastate and interstate interests similarly —
the similar effect on interstate and intrastate interests
assuaging the concern that the statute is designed to
favor local interests.” Brown & Williamson, 320 F.3d at
209.
2.

Analysis

a. The Pass-Through Prohibition Violates
the Dormant Commerce Clause Under
Any Interpretation

i. The Plainest Reading of the PassThrough Prohibition Would Require
the Extraterritorial Application of
State Law

New York does not seriously dispute that the most
natural reading of the OSA’s pass-through provisions
violates the Commerce Clause’s prohibition on extra-

61a
territorial state legislation. Instead, it argues that it
does not intend to apply the OSA to penalize wholly
out-of-state transactions: “[T]here is nothing in the
record suggesting that DOH intends to take that expansive an approach to the Act. Notably, the Legislative History reflects a concern that New York impose
the surcharge only to the extent that it can be done so
constitutionally.” (NY-AAM Opp. 10). However, New
York’s position is seriously, if not mortally, wounded by
the fact that the text of the OSA places no such limitation on the pass-through prohibition, stating merely:
“Where the ratable share, or any portion thereof, has
been passed on to a purchaser by a licensee, the commissioner may impose a penalty not to exceed one million dollars per incident.” N.Y. Pub. Health Law
§ 3323(10)(c). Indeed, at other points, the OSA specifically references sales made within New York State.
See, e.g., id. § 3323(4) (“Each manufacturer and distributor licensed under this article that sells or distributes opioids in the state of New York shall provide
to the commissioner a report detailing all opioids sold
or distributed by such manufacturer or distributor in
the state of New York.”). As AAM points out, New York
nowhere concedes that it will never charge the penalty
for out-of- state sales, only that it has displayed no current intention to do so. (AAM Reply 4 (“Defendants
could obviate AAM’s First Cause of Action simply by
agreeing that an out-of-state transaction is not subject
to the Act’s anti-pass- through provisions and accepting a consent decree to that effect.”)).
If OSA’s provisions are given their clearest meaning, the Dormant Commerce Clause violation is clear.
An opioid manufacturer based in Maine that wished to
pass on the surcharge it paid on New York transactions by selling opioids at a markup to a pharmacy in
New Mexico could face a million- dollar penalty from

62a
New York State. While the statute “may not in explicit
terms seek to regulate interstate commerce,” that it
does so “nonetheless by its practical effect and design”
is abundantly clear. C & A Carbone, 511 U.S. at 394.
However, despite the clear constitutional problems evidenced by this example, the Court does not end its
analysis there, as “the elementary rule is that every
reasonable construction must be resorted to in order to
save a statute from unconstitutionality.” Hooper v.
People of State of Cal., 155 U.S. 648, 657 (1895). The
Court turns to an examination of the OSA under the
Dormant Commerce Clause, where the penalty provision is assumed to apply only in-state, and where the
text is understood to mean, “Where the ratable share,
or any portion thereof, has been passed on to a New
York purchaser by a licensee, the commissioner may
impose a penalty not to exceed one million dollars per
incident.”
ii. If Limited to New York, the PassThrough Prohibition Discriminates
Against Out-of-State Purchasers

If the OSA pass-through prohibition applies only to
in-state purchasers, New York would clearly “reap
some of the benefits of tariffs by other means.” Healy,
512 U.S. at 193. New York opioid customers would be
protected from any price increases in their purchases,
and New York would receive a source of funding subsidized by the out-of-state purchasers of opioids. New
York could completely avoid the political consequences
of its action, as no New York-based business or taxpayer would face a higher cost. Rather, out-of-state drug
purchasers, with no representation in New York’s legislature or executive, would bear the cost of New York’s
policy program. This shifting of burdens and benefits is
antithetical to the idea of intra-national free trade and
demonstrates why the Dormant Commerce Cause ex-

63a
ists, i.e., to prohibit discrimination as to “any part of
the stream of commerce — from wholesaler to retailer
to consumer.” Id. at 192.
New York attempts to argue around this clear
problem by proffering alternative constructions of the
OSA. It suggests that the pass-through prohibition
could be limited to cases where the cost would otherwise be filtered back through the state through Medicaid, or to situations where a company “contractually
offloads the surcharge onto customers or expressly imposes the surcharge as a component of the price for
opioid product”; alternatively, it suggests that companies “could distribute their ratable shares amongst all
other drug purchasers (i.e., non-opioid sales), both in
and outside New York, thereby minimizing if not rendering insignificant any purported economic harm or
conflict with federal law.” (NY-AAM Opp. 8-10; NY-SG
Opp. 17). The first and most obvious problem with
these arguments is that the text of the Act offers no
support for any of these interpretations. Indeed, the
legislature specifically included the term “any portion
thereof” in the statutory text. N.Y. Pub. Health Law
§ 3323(10)(c). New York essentially asks the Licensees,
including Plaintiffs, to trust that DOH will not enforce
the statute as written. The Court will not force these
entities to serve as test subjects in New York’s evolving
effort to address constitutional issues that could easily
have been remedied at the drafting stage.
What is more, no matter what construction New
York provides, the Act would still have the effect of discriminating between the purchasers of opioids in New
York and those outside it. If the penalty is limited to
situations where New York would pay through Medicaid, New York Medicaid would gain a discount that
other states’ Medicaid programs would not. If the
charge could be passed contractually outside New York

64a
but not within, New York customers would gain an advantage unavailable to their out-of-state counterparts.
Even if New York purchasers of non-opioid pharmaceuticals could be forced to pay a percentage of the surcharge, this would still not remedy the problem, inasmuch as the Act still treats New York customers of
opioids differently than out-of- state customers of the
same product. New York’s problem remains the same
throughout: the Supreme Court has expressly held that
the Constitution prohibits “legislation that has the
practical effect of establishing ‘a scale of prices for use
in other states.’” Healy, 491 U.S. at 336.
The cases that New York cites in its defense only
underscore the problem. New York cites Freedom Holdings, Inc. v. Spitzer, 357 F.3d 205 (2d Cir. 2004), which
upheld New York’s cigarette contraband statutes, but
the Second Circuit began its discussion in that case by
pointing out that the plaintiffs “[could not and did] not
identify any in-state commercial interest that [was] favored, directly or indirectly, by the Contraband Statutes at the expense of out-of-state competitors. Id. at
218. Here, the distinction between in-state and out-ofstate commercial actors is clear. New York also points
to National Elec. Mfrs. Ass’n v. Sorrell, 272 F.3d 104
(2d Cir. 2001). However, Sorrell, which allowed Vermont to require lamps containing mercury bulbs to
bear labels, is a particularly weak case for New York,
considering the following distinction advanced by the
Court: “In cases like Healy, the state necessarily prevented firms from recouping any of the costs imposed
by the state statute from the residents of the state itself. Here, the manufacturers remain free to charge
higher prices only to Vermonters without risking violation of the statute.” 272 F.3d at 110. The OSA’s passthrough prohibition places this case far closer to Healy
than Sorrell.

65a
This analysis of the pass-through prohibition requires no factual findings. Because the question of Pike
balancing requires additional factual development, and
because the OSA either regulates extraterritorially or
discriminates in its effects, the Court does not believe
it is necessary to address Pike. Rather, it is clear from
the legislation itself that the pass-through prohibition
cannot be applied in a constitutional manner.
3.

The Pass-Through Prohibition Cannot be
Severed From the OSA

What remains is the question of severance — can
the pass-through prohibition be severed from the OSA?
Here, alliances are switched, in that all parties but
HDA believe the provision can be severed. The Court
agrees with HDA.
a. Applicable Law
“Severability is a question of state law[.]” Concerned Home Care Providers, Inc. v. Cuomo, 783 F.3d
77, 88 (2d Cir. 2015). “The question is … whether the
legislature … would have wished the statute to be enforced with the invalid part exscinded.” Nat’l Advert.
Co. v. Town of Niagara, 942 F.2d 145, 148 (2d Cir.
1991) (internal citations omitted). “In the absence of
evidence that the Legislature would have intended that
[a law] remain effective if the primary purpose of the
act … could not be given effect, there is no basis to sever[.]” City of N.Y. v. Patrolmen’s Benev. Ass’n of City of
N.Y., Inc., 89 N.Y.2d 380, 394 (1996).
Courts generally presume severability, in accordance with the admonition of then-Judge Cardozo that:
“Our right to destroy is bounded by the limits of necessity. Our duty is to save unless in saving we pervert.”
People ex rel. Alpha Portland Cement Co. v. Knapp, 230
N.Y. 48, 62-63 (1920), cert. denied, 256 U.S. 702 (1921).
“The preference for severance is particularly strong

66a
when the law contains a severability clause.” Nat’l Advert. Co., 942 F.2d at 148. However, “severance is inappropriate when the valid and invalid provisions are so
intertwined that excision of the invalid provisions
would leave a regulatory scheme that the legislature
never intended.” Id. A court may also abstain from
considerations of severability and seek (or wait for)
guidance from the state. Cf. Exxon Corp. v. Eagerton,
462 U.S. 176, 197 (1983) (“Since the severability of the
pass-through prohibition from the remainder of the
1979 amendments is a matter of state law, we remand
to the Supreme Court of Alabama[.]”).
b. Analysis
This case exemplifies the second line of Judge
Cardozo’s admonition; “saving” the OSA absent the
pass-through prohibition would clearly “pervert” it. As
HDA points out,
Governor Cuomo assured legislators that
“[l]anguage in the budget ensures the costs are
borne by industry, not by consumers.”… [I]n a
legislative hearing, after an assemblyman expressed that “a lot of us are concerned on how
this surcharge could go to the consumer,”
Commissioner Zucker promised that the Surcharge will not “get filtered down to the enduser.”
(HDA Br. 25). Assembly Member Weinstein, who presented and defended the law before the Assembly, declared similarly that it was “certainly not the [drafter’s] intention [to have pharmacies pay the OSA’s surcharge].” (Farber Decl., Ex. K at 23).
New York’s response is not to debate the legislative
history, which makes clear the State’s desire to place
the surcharge directly on distributors and manufacturers. Instead, New York points to the revenue-raising

67a
goals of the law. Its discussion of severability strikes
the Court as half-hearted, if not defeatist:
[E]ven if the pass-through provision were
struck down judicially, the remainder of the
Act could potentially remain in force. Though
the Act’s revenue-raising purpose would be seriously impaired, conceivably alternative funding for the programs at issue could be supplied
through subsequent legislation.
(NY-HDA Opp. 22). When New York suggests that
subsequent legislation would be necessary to ensure
the OSA achieves its goals absent the prohibition, it is
not fairly grappling with a standard that requires examination of whether severance “would leave a regulatory scheme that the legislature never intended.” Nat’l
Advert. Co., 942 F.2d at 148.
The severability analysis does not ask whether a
state can wring some benefit from the dregs of a discarded statutory scheme. The Court understands that
New York prefers to have $100 million in anticipated
stewardship charges in its budget, but the Governor,
Commissioner, and legislators explicitly pledged that
the costs of the bill would not flow to end- users and
pharmacies. This clearly suggests that a bill that merely imposed a surcharge, without any mechanism for
preventing the costs of that surcharge from flowing to
the consumer, was “never intended.”
To be sure, the OSA contains a severability clause.
However, the Second Circuit has spoken to the somewhat limited utility of such clauses:
The presence of such a clause … is not dispositive. See New York State Superfund Coalition,
Inc. v. New York State Dep’t of Environmental
Conservation, 75 N.Y.2d 88, 94 (Ct. App. 1989)
(holding that objectionable sections were not

68a
severable from entire statute despite presence
of a severability clause); see also United States
v. Jackson, 390 U.S. 570, 585 n.27 (1968) (the
ultimate determination of severability will
rarely turn on the presence or absence of a
severability clause). We should not, for example, treat a severability clause as an invitation
from the legislature to write whatever statute
we can fashion from the constitutional remnants as augmented by our imagination.
Nat’l Advert. Co., 942 F.2d at 148.
The legislative history of the OSA evinces a clear
assessment by the legislature as to where it expected
this money to come from, and New York does not so
much as hint that it ever considered other sources than
the Licensees. In other cases, contested legislation may
consist of multiple regulatory actions with unconnected
elements and diverse goals. See, e.g., Concerned Home
Care Providers, 783 F.3d at 88 (“[W]e agree with the
district court that, without subdivision four, the Wage
Parity Law will still accomplish the legislative purpose
of aligning home care aide compensation in the New
York City metropolitan area.”). However, the OSA
clearly rests on the twin pillars of a surcharge and a
pass-through prohibition. With one pillar knocked out
for constitutional reasons, the OSA cannot stand. The
Court does not sever the pass-through prohibition; it
rules that the OSA is unconstitutional its entirety. For
this reason, it grants HDA’s motion for summary
judgment.
As the Court has determined that the OSA is unconstitutional under the Dormant Commerce Clause, it
declines to address HDA’s arguments concerning Substantive Due Process, Bills of Attainder, the Takings
Clause, and vagueness. The Dormant Commerce
Clause prevents New York from enforcing the OSA, but

69a
unlike HDA’s remaining challenges, the Dormant
Commerce Clause does not speak to the ability of the
federal government to pass similar legislation. Keeping
in mind that “[i]t is not the habit of [a] court to decide
questions of a constitutional nature unless absolutely
necessary to a decision of the case[,]” Ashwander v.
Tennessee Valley Auth., 297 U.S. 288, 347 (1936)
(Brandeis, J., concurring), the Court will refrain from
addressing these issues.
Similarly, the Court declines to address the
preemption arguments raised by SpecGx. “[T]he Supreme Court has cautioned against preempting state
action in fields of traditional state regulation, and has
assumed that the historic police powers of the States
were not to be superseded by [a] Federal Act unless
that was the clear and manifest purpose of Congress.”
Concerned Home Care Providers, 783 F.3d at 88 (internal quotations omitted). As many of the issues raised
in the preemption argument fit more neatly into a
Dormant Commerce Clause argument, the Court will
heed the warning of the Supreme Court and Second
Circuit and will demur on the issue of preemption.
C. The Court Grants AAM’s and SpecGx’s Motions
for Preliminary Injunction

To review, AAM and SpecGx brought more surgical
applications for relief from this Court, each seeking a
preliminary injunction against enforcement of the
pass-through prohibition rather than summary judgment. A preliminary injunction “is an extraordinary
and drastic remedy” that a district court should grant
only if “the movant, by a clear showing, carries the
burden of persuasion.” Grand River Enter. Six Nations,
Ltd. v. Pryor, 481 F.3d 60, 66 (2d Cir. 2007) (quoting
Moore v. Consol. Edison Co. of N.Y., 409 F.3d 506, 510
(2d Cir. 2005)). This burden requires the movant to
“establish [i] irreparable harm; [ii] either (a) a likeli-

70a
hood of success on the merits, or (b) sufficiently serious
questions going to the merits of its claims to make
them fair ground for litigation, plus a balance of the
hardships tipping decidedly in favor of the moving party; and [iii] that a preliminary injunction is in the public interest.” New York ex rel. Schneiderman v. Actavis
PLC, 787 F.3d 638, 650 (2d Cir. 2015), (internal quotation marks omitted) (quoting Oneida Nation of N.Y. v.
Cuomo, 645 F.3d 154, 164 (2d Cir. 2011)).7
The Court has found that the pass-through prohibition violates the Dormant Commerce Clause, and
AAM and SpecGx have thereby satisfied the “likelihood
of success” requirement. The other requirements are
also met. Irreparable harm in this setting is defined as
“certain and imminent harm for which a monetary
award does not adequately compensate.” Wisdom Imp.
Sales Co. v. Labatt Brewing Co., 339 F.3d 101, 113 (2d
Cir. 2003). It exists “where, but for the grant of equitable relief, there is a substantial chance that upon final
resolution of the action the parties cannot be returned
to the positions they previously occupied.” Brenntag
Int’l Chem., Inc. v. Bank of India, 175 F.3d 245, 249-50
(2d Cir. 1999) (citing American Hosp. Supply Corp. v.
Hospital Prods. Ltd., 780 F.2d 589, 594 (7th Cir.
1986)). And it is often presumed in cases involving a
constitutional violation. See Jolly v. Coughlin, 76 F.3d
468, 482 (2d Cir. 1996) (“The district court therefore
properly relied on the presumption of irreparable inju7

And where a movant seeks a preliminary injunction under the
“serious questions” standard, the movant “must not only show
that there are ‘serious questions’ going to the merits, but must
additionally establish that ‘the balance of hardships tips decidedly’
in its favor,” and thus the “overall burden is no lighter than the
one it bears under the ‘likelihood of success’ standard.” Citigroup
Glob. Mkts., Inc. v. VCG Special Opportunities Master Fund Ltd.,
598 F.3d 30, 35 (2d Cir. 2010) (internal citation omitted).

71a
ry that flows from a violation of constitutional rights.”).
Here, AAM and SpecGx have presented credible evidence that the OSA, and in particular its pass-through
prohibition, will cause them to alter dramatically, if
not eliminate altogether, their sales of opioid medications in New York. Such wholesale restructuring, undertaken in response to credible threats of milliondollar penalties, suffices to demonstrate irreparable
harm.
The Court also finds that the balance of equities
favors the grant of injunction. In so finding, the Court
reiterates that the underlying goals of the OSA are
commendable. However, the Court cannot permit New
York to achieve these goals through unconstitutional
means. In other words, New York’s interest in the public health of its residents cannot trump the Commerce
Clause. Additionally, the perhaps-unforeseen consequence that the OSA could well reduce the availability
of opioid medications for those who need them also
runs counter to the public interest.
For all of these reasons, AAM’s and SpecGx’s motions for preliminary injunction are granted.
CONCLUSION

For the foregoing reasons, New York’s motions to
dismiss in all three cases are DENIED; HDA’s motion
for summary judgment in Case No. 18 Civ. 6168 is
GRANTED; AAM’s motion for preliminary injunctive
relief in Case No. 18 Civ. 8180 is GRANTED; and
SpecGx’s motion for preliminary injunctive relief in
Case No. 18 Civ. 9830 is GRANTED.
As to Case No. 18 Civ. 6168, the Clerk of Court is
directed to terminate all pending motions, adjourn all
remaining dates, and close the case.

72a
As to Case No. 18 Civ. 8180, the Clerk of Court is
directed to terminate the motions at docket entries 8,
10, and 22.
As to Case No. 18 Civ. 9830, the Clerk of Court is
directed to terminate the motions at docket entries 7
and 27.
The parties in each of Case Nos. 18 Civ. 8180 and
18 Civ. 9830 are directed to submit letters to the Court
regarding next steps in the case on or before January
31, 2019.
SO ORDERED.
Dated:
December 19, 2018
New York, New York

KATHERINE POLK FAILLA
United States District Judge

73a
APPENDIX C
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT

At a stated term of the United States Court of Appeals for the Second Circuit, held at the Thurgood
Marshall United States Courthouse, 40 Foley Square,
in the City of New York, on the 18th day of December,
two thousand twenty.
Association for Accessible Medicines,
Healthcare Distribution Alliance,
SpecGx LLC,
Plaintiffs – Appellees,
v.
Letitia James, in her official capacity as Attorney General of the State
of New York, Howard A. Zucker, in
his official capacity as Commissioner
of Health of the State of New York,

ORDER

Docket Nos:
19-183 (Lead)
19-199
(Con)
19-201 (Con)

Defendants – Appellants.

Appellees filed a petition for panel rehearing, or, in
the alternative, for rehearing en banc. The panel that
determined the appeal has considered the request for
panel rehearing, and the active members of the Court
have considered the request for rehearing en banc.
IT IS HEREBY ORDERED that the petition is
denied.

74a
FOR THE COURT:
Catherine O’Hagan
Wolfe, Clerk

75a
APPENDIX D
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT

At a Stated Term of the United States Court of
Appeals for the Second Circuit, held at the Thurgood
Marshall United States Courthouse, 40 Foley
Square, in the City of New York, on the 12th day of
February, two thousand twenty-one.
Before:

José A. Cabranes,
Raymond J. Lohier, Jr.,
Circuit Judges,
Christina Reiss,
District Judge.*

Association for Accessible Medicines,
Healthcare Distribution Alliance,
SpecGx LLC,
Plaintiffs – Appellees,
v.
Letitia James, in her official capacity as Attorney General of the State
of New York, Howard A. Zucker, in
his official capacity as Commissioner
of Health of the State of New York,

ORDER

Docket Nos:
19-183 (Lead)
19-199
(Con)
19-201 (Con)

Defendants – Appellants.

* Judge Christina Reiss, of the United States District Court for
the District of Vermont, sitting by designation.

76a
Appellees move to stay the mandate pending the
filing and disposition of a petition for a writ of certiorari. Appellants oppose the motion.
IT IS HEREBY ORDERED that the motion is
GRANTED.
FOR THE COURT:
Catherine O’Hagan
Wolfe, Clerk

77a
APPENDIX E
Tax Injunction Act (TIA), 28 U.S.C. § 1341 provides
as follows:

The district courts shall not enjoin, suspend or
restrain the assessment, levy or collection of any
tax under State law where a plain, speedy and
efficient remedy may be had in the courts of such
State.
The Opioid Stewardship Act (OSA), provides in relevant part as follows:
Public Health Law§ 3323
Opioid stewardship fund
1.

Definitions:

(a) “Opioid stewardship payment” shall mean the
total amount to be paid into the opioid stewardship fund for each state fiscal year as set
forth in subdivision two of this section.
(b) “Ratable share” shall mean the individual
portion of the opioid stewardship payment to
be paid by each manufacturer and distributor
licensed under this article that sells or distributes opioids in the state of New York.
(c) Notwithstanding any inconsistent provision of
law to the contrary, “distribute” shall mean to
deliver a controlled substance other than by
administering or dispensing to the ultimate
user, including intra-company transfers between any division, affiliate, subsidiary, parent or other entity under complete common
ownership and control. For purposes of this
section, “distribute” shall not include con-

78a
trolled substances surrendered to reverse distributors, or donated to recipient entities or
third-party intermediaries pursuant to the
unused prescription drug donation and redispensing program of section two hundred
eighty-b of this chapter.
2.

Opioid stewardship payment imposed on
manufacturers and distributors.

All manufacturers and distributors licensed under this
article (hereinafter referred to as “licensees”), that sell
or distribute opioids in the state of New York shall be
required to pay an opioid stewardship payment. On an
annual basis, the commissioner shall certify to the
state comptroller the amount of all revenues collected
from opioid stewardship payments and any penalties
imposed. The amount of revenues so certified shall be
deposited quarterly into the opioid stewardship fund
established pursuant to section ninety-seven-aaaaa of
the state finance law. No licensee shall pass the cost of
their ratable share amount to a purchaser, including
the ultimate user of the opioid, or such licensee shall
be subject to penalties pursuant to subdivision ten of
this section.
3.

Determination of opioid stewardship payment.

The total opioid stewardship payment amount shall be
one hundred million dollars annually, subject to
downward adjustments pursuant to subdivision nine of
this section.
4.

Reports and records.

Each manufacturer and distributor licensed under this
article that sells or distributes opioids in the state of
New York shall provide to the commissioner a report
detailing all opioids sold or distributed by such manufacturer or distributor in the state of New York. Such

79a
report shall include:
(a) the manufacturer’s or distributor’s name, address, phone number, federal Drug Enforcement Agency (DEA) registration number and
controlled substance license number issued by
the department;
(b) the name, address and DEA registration number of the entity to whom the opioid was sold
or distributed;
(c) the date of the sale or distribution of the opioid;
(d) the gross receipt total, in dollars, of all opioids
sold or distributed;
(e) the name and National Drug Code (NDC) of
the opioid sold or distributed;
(f) the number of containers and the strength and
metric quantity of controlled substance in each
container of the opioid sold or distributed;
(g) the total number of morphine milligram
equivalents (MMEs) sold or distributed; and
(h) any other elements as deemed necessary by
the commissioner.
4-a. Initial and future reports.

(a) Such information shall be reported annually to
the department in such form as defined by the
commissioner, provided however that the initial report provided pursuant to subdivision
four shall consist of all opioids sold or distributed in the state of New York for the two thousand seventeen calendar year, and must be
submitted by August 1, 2018. Subsequent annual reports shall be submitted on April first
of each year based on the actual opioid sales
and distributions of the prior calendar year.

80a
(b) For the purpose of such annual reporting,
MMEs shall be determined pursuant to a formulation to be issued by the department and
updated as the department deems appropriate.
5.

Determination of ratable share.

Each manufacturer and distributor licensed under this
article that sells or distributes opioids in the state of
New York shall pay a portion of the total opioid stewardship payment amount. The ratable share shall be
calculated as follows:
(a) The total amount of MMEs sold or distributed
in the state of New York by the licensee for the
preceding calendar year, as reported by the licensee pursuant to subdivision four of this section, shall be divided by the total amount of
MME sold in the state of New York by all licensees pursuant to this article to determine
the licensee payment percentage. The licensee
payment percentage shall be multiplied by the
total opioid stewardship payment. The product
of such calculation shall be the licensee’s ratable share. The department shall have the authority to adjust the total number of a licensee’s MMEs to account for the nature and use
of the product, as well as the type of entity
purchasing the product from the licensee,
when making such determination and adjust
the ratable share accordingly.
(b) The licensee’s total amount of MME sold or
distributed, as well as the total amount of
MME sold or distributed by all licensees under
this article, used in the calculation of the ratable share shall not include the MME of those
opioids which are:

81a
(i)

manufactured in New York state, but
whose final point of delivery or sale is
outside of New York state;
(ii) sold or distributed to entities certified to
operate pursuant to article thirty-two of
the mental hygiene law, or article forty of
the public health law; or
(iii) the MMEs attributable to buprenorphine,
methadone or morphine.
(c) The department shall provide to the licensee,
in writing, on or before October fifteenth, two
thousand eighteen, the licensee’s ratable share
for the two thousand seventeen calendar year.
Thereafter, the department shall notify the licensee in writing annually on or before October fifteenth of each year based on the opioids
sold or distributed for the prior calendar year.
6. Payment of ratable share.

The licensee shall make payments quarterly to the department with the first payment of the ratable share,
provided that the amount due on January first, two
thousand nineteen shall be for the full amount of the
first annual payment, with additional payments to be
due and owing on the first day of every quarter thereafter.
7. Rebate of ratable share.

In any year for which the commissioner determines
that a licensee failed to report required information as
required by this section, those licensees complying with
this section shall receive a reduced assessment of their
ratable share in the following year equal to the amount
in excess of any overpayment in the prior payment period.

82a
8.

Licensee opportunity to appeal.

A licensee shall be afforded an opportunity to submit
information to the department to justify why the ratable share provided to the licensee, pursuant to paragraph (c) of subdivision five of this section, or amounts
paid thereunder are in error or otherwise not warranted. If the department determines thereafter that all or
a portion of such ratable share, as determined by the
commissioner pursuant to subdivision five of this section, is not warranted, the department may:
(a) adjust the ratable share;
(b) adjust the assessment of the ratable share in
the following year equal to the amount in excess of any overpayment in the prior payment
period; or
(c) refund amounts paid in error.
9.

Department annual review.

The department shall annually review the amount of
state operating funds spent in the office of alcoholism
and substance abuse services (OASAS) budget for opioid prevention, treatment and recovery. The commissioner of OASAS shall certify to the department the
amount of annual spending for such services, utilizing
available information on patient demographics and the
actual cost of services delivered by the state and by
state-funded providers. The certification of such spending shall begin in state fiscal year two thousand eighteen-nineteen, and continue annually thereafter. The
total amount of such spending shall be provided to the
department by the commissioner of OASAS no later
than June thirtieth of each year. There shall be no
stewardship fund payments beginning on July first in
the event state operating funds spent in the OASAS
budget for opioid prevention, treatment and recovery in
the most recently reported year is equal to or less than

83a
state operating funds spent for such purposes in state
fiscal year two thousand nine-ten.
10. Penalties.

(a) The department may assess a civil penalty in
an amount not to exceed one thousand dollars per
day against any licensee that fails to comply with
subdivisions four and four-a of this section.
(b) In addition to any other civil or criminal penalty provided by law, where a licensee has failed to
pay its ratable share in accordance wipth subdivision six of this section, the department may also
assess a penalty of no less than ten percent and no
greater than three hundred percent of the ratable
share due from such licensee.
(c) Where the ratable share, or any portion thereof, has been passed on to a purchaser by a licensee,
the commissioner may impose a penalty not to exceed one million dollars per incident.
***
State Finance Law § 97-aaaaa
Opioid stewardship fund.

1. There is hereby established in the joint custody of the state comptroller and the commissioner of
taxation and finance an account of the miscellaneous special revenue account to be known as the
“opioid stewardship fund”.
2. Moneys in opioid stewardship fund shall be
kept separate and shall not be commingled with
any other moneys in the custody of the state comptroller and the commissioner of taxation and finance.

84a
3. The opioid stewardship fund shall consist of
moneys appropriated for the purpose of such account, moneys transferred to such account pursuant to law, contributions consisting of promises or
grants of any money or property of any kind or
value, or any other thing of value, including grants
or other financial assistance from any agency of
government and moneys required by the provisions
of this section or any other law to be paid into or
credited to this account.
4. Moneys of the opioid stewardship fund, when
allocated, shall be available, subject to the approval of the director of the budget, to support programs operated by the New York state office of alcoholism and substance abuse services or agencies
certified, authorized, approved or otherwise funded
by the New York state office of alcoholism and substance abuse services to provide opioid treatment,
recovery and prevention and education services;
and to provide support for the prescription monitoring program registry as established pursuant to
section thirty-three hundred forty-three-a of the
public health law.
5. At the request of the budget director, the state
comptroller shall transfer moneys to support the
costs of opioid treatment, recovery, prevention, education services, and other related programs, from
the opioid stewardship fund to any other fund of
the state to support this purpose.
6. (i) Notwithstanding the provisions of any general or special law, no moneys shall be available
from the opioid stewardship fund until a certificate
of allocation and a schedule of amounts to be
available therefor shall have been issued by the director of the budget, upon the recommendation of
the commissioner of the office of alcoholism and

85a
substance abuse services, and a copy of such certificate filed with the comptroller, the chairman of
the senate finance committee and the chairman of
the assembly ways and means committee.
(ii) Such certificate may be amended from time to
time by the director of the budget, upon the recommendation of the commissioner of the office of
alcoholism and substance abuse services, and a
copy of such amendment shall be filed with the
comptroller, the chairman of the senate finance
committee and the chairman of the assembly ways
and means committee.
7. The moneys, when allocated, shall be paid out
of the opioid stewardship fund, pursuant to subdivision four of this section, and subject to the approval of the director of the budget, on the audit
and warrant of the comptroller on vouchers certified or approved by (i) the commissioner of the office of alcoholism and substance abuse services or
his or her designee; or (ii) the commissioner of the
department of health or his or her designee.

